<html>
<title> - HOW THE PRIVATE SECTOR IS HELPING STATES AND COMMUNITIES IMPROVE HIGH SCHOOL EDUCATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 HOW THE PRIVATE SECTOR IS HELPING STATES AND COMMUNITIES IMPROVE HIGH 
                            SCHOOL EDUCATION

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             June 28, 2005

                               __________

                           Serial No. 109-23

                               __________

  Printed for the use of the Committee on Education and the Workforce











 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov




                 U.S. GOVERNMENT PRINTING OFFICE

22-178                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001













                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Vernon J. Ehlers, Michigan           Robert E. Andrews, New Jersey
Judy Biggert, Illinois               Robert C. ``Bobby'' Scott, 
Todd Russell Platts, Pennsylvania        Virginia
Ric Keller, Florida                  Ruben Hinojosa, Texas
Joe Wilson, South Carolina           Ron Kind, Wisconsin
Marilyn N. Musgrave, Colorado        Dennis J. Kucinich, Ohio
Bobby Jindal, Louisiana              Susan A. Davis, California
John R. ``Randy'' Kuhl, Jr., New     George Miller, California, ex 
    York                                 officio
John A. Boehner, Ohio, ex officio
                                 ------                                
























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 28, 2005....................................     1

Statement of Members:
    Castle, Hon. Michael N, Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     1
        Prepared statement of....................................     3
    Woolsey, Hon. Lynn C., Ranking Member, Subcommittee on 
      Education Reform, Committee on Education and the Workforce.     4

Statement of Witnesses:
    Hudecki, Dr. Phyllis, Executive Director, Oklahoma Business 
      and Education Coalition, Oklahoma City, OK.................    23
        Prepared statement of....................................    25
    Shore, Bill A., Director of U.S. Community Partnerships, 
      GlaxoSmithKline, Research Triangle Park, NJ................     6
        Prepared statement of....................................     8
    Sterling, Sarah Revi, Program Manager, University Relations, 
      Microsoft Corporation, Redmond, WA.........................    15
        Prepared statement of....................................    17
    Watson, Mike, Vice Chairman, BellSouth Foundation, Atlanta, 
      GA.........................................................    20
        Prepared statement of....................................    22


























 HOW THE PRIVATE SECTOR IS HELPING STATES AND COMMUNITIES IMPROVE HIGH 
                            SCHOOL EDUCATION

                              ----------                              


                         Tuesday, June 28, 2005

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 3 p.m., in room 
2175, Rayburn House Office Building, Hon. Mike Castle [Chairman 
of the Subcommittee] Presiding.
    Present: Representatives Castle, Osborne, Ehlers, Woolsey, 
Scott, Hinojosa, Kind and Kucinich.
    Staff Present: Amanda Farris, Professional Staff Member; 
Kevin Frank, Professional Staff Member; Jessica Gross, 
Legislative Assistant; Lucy House, Legislative Assistant; 
Kimberly Ketchel, Communications Staff Assistant; Deborah L. 
Samantar, Committee Clerk/Intern Coordinator; Alice Cain, 
Minority Legislative Associate/Education; Lloyd Horwich, 
Minority Legislative Associate/Education; Ricardo Martinez, 
Minority Legislative Associate/Education; and Joe Novotny, 
Minority Legislative Assistant/Education.
    Chairman Castle. Good afternoon. A quorum being present, 
the Subcommittee on Education Reform and the Committee on 
Education and the Workforce will come to order. We welcome 
obviously those who are going to be speaking with us today and 
all the visitors who are in the room as well. Our meeting today 
will hear testimony on how the private sector is helping States 
and communities improve high schools.
    Under Committee Rule 12(b), opening statements are limited 
to the Chairman and the Ranking Minority Member Ms. Woolsey. 
Therefore, if other Members have statements, they may be 
included in the hearing record. I ask unanimous consent for the 
hearing record to remain open 14 days to allow Members' 
statements and other extraneous material referenced during the 
hearing to be submitted in the official hearing record. Without 
objection, so ordered.

STATEMENT OF HON. MICHAEL N. CASTLE, CHAIRMAN, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Chairman Castle. Today marks the third in a series of 
hearings our Committee will hold to examine the status of 
secondary education and various efforts to strengthen high 
schools across the country. This Committee has already heard 
from Governors about their high school reform efforts and from 
a variety of nonprofit organizations about the partnerships 
they have across the country and the innovative ways in which 
they are driving changes in our high schools. Today we will 
hear from some of the private sector corporations and business 
partnerships that are increasing innovation and improvement in 
our Nation's high schools.
    During our last hearing, I mentioned a number of statistics 
to suggest high school reform is surfacing as a necessity. For 
those of you who were at that hearing, I apologize for being 
redundant, but I think it is important to note this recent 
research that indicates one-quarter of America's high school 
students read below basic levels. America's 15-year-olds 
performed below the national average in mathematics, literacy 
and problem solving, placing 27th out of 39 countries. Thirty 
percent of students do not graduate from high school. And 50 
percent of African American and Hispanic students do not 
graduate. These are unacceptable statistics and are very 
similar to the challenges we saw in our elementary schools 
prior to the enactment of No Child Left Behind.
    High schools no longer are about simply moving students 
from ninth grade to graduation. We must now ensure all students 
are leaving their secondary education with the skills necessary 
to reach their next goal. Whether that goal is college, the 
military or the workforce is irrelevant. All students now need 
a strong foundation of skills and knowledge to excel in life 
after high school.
    The testimony that today's witnesses will provide makes the 
important point that the modern workplace is very different 
than it was when America's high schools were first designed. In 
many cases even the most basic job applications must be 
completed on computers--good thing I am not applying--requiring 
almost every person to have at least a basic understanding of 
technology.
    Technology is only one piece of the pie. A student 
graduating from high school must have a broad skill set of 
reading, analytical skills, communication and technology in 
order to succeed postgraduation. I am sure that every person in 
this room has heard me say more than once that I am an advocate 
on behalf of No Child Left Behind. It is the right thing to do, 
and the law is making significant headway in closing the 
achievement gap, particularly in elementary schools when all 
children should be learning basic skills like reading and math.
    I commend the President, the States, the National Governors 
Association, local school districts and both nonprofit and for-
profit organizations for recognizing we need to address our 
Nation's high schools. I am not yet sure there is Federal role 
or what that role should be, but I remain committed to learning 
more and doing whatever I can to make high schools part of the 
education reform dialog.
    The private sector is uniquely qualified to help address 
the challenges of high school reform, because businesses 
recognize the importance of a strong secondary education in 
preparing students for future success. That is why so many in 
the business community have joined with States and local 
communities to encourage innovation and meaningful reforms that 
will strengthen high schools and better prepare students for 
the future.
    We have begun to hear fascinating stories about what is 
currently happening across the country with respect to high 
school reform. I look forward to hearing from today's witnesses 
concerning the need for reform and the partnerships they have 
formed. I thank the witnesses for joining us today, and I look 
forward to hearing your testimony.
    [The prepared statement of Chairman Castle follows:]

    Statement of Hon. Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Today marks the third in a series of hearings our Committee will 
hold to examine the status of secondary education and various efforts 
to strengthen high schools across the country. This Committee has 
already heard from governors about their high school reform efforts, 
and from a variety of non-profit organizations about the partnerships 
they have across the country, and the innovative ways in which they are 
driving change in our high schools. Today we will hear from some of the 
private sector corporations and business partnerships that are 
increasing innovation and improvement in our nation's high schools.
    During our last hearing, I mentioned a number of statistics that 
suggest high school reform is surfacing as a necessity. For those of 
you who were at that hearing, I apologize for being redundant, but I 
think it is important to note this recent research, which indicates:
    <bullet>  One quarter of America's high school students read below 
basic levels;
    <bullet>  America's 15-year-olds performed below the international 
average in mathematics literacy and problem-solving, placing 27th out 
of 39 countries;
    <bullet>  30% of students do not graduate from high school; and
    <bullet>  50% of African-American and Hispanic students do not 
graduate.
    These are unacceptable statistics, and are very similar to the 
challenges we saw in our elementary schools prior to the enactment of 
No Child Left Behind. High school is no longer about simply moving 
students from ninth grade to graduation. We must now ensure all 
students are leaving their secondary education with the skills 
necessary to reach their next goal. Whether that goal is college, the 
military, or the workforce is irrelevant--all students now need a 
strong foundation of skills and knowledge to excel in life after high 
school.
    The testimony that today's witnesses will provide makes the 
important point that that modern workplace is very different than it 
was when America's high schools were first designed. In many cases, 
even the most basic job applications must be completed on computers, 
requiring almost every person to have at least a basic understanding of 
technology. Technology is only one piece of the pie. A student 
graduating from high school must have a broad skill set of reading, 
analytical skills, communication, and technology in order to succeed 
post-graduation.
    I am sure that every person in this room has heard me say more than 
once that I am an advocate on behalf of No Child Left Behind. It is the 
right thing to do, and the law is making significant headway in closing 
the achievement gap, particularly in elementary schools when all 
children should be learning basic skills like reading and math. I 
commend the President, the states, the National Governors Association, 
local school districts, and both non-profit and for-profit 
organizations for recognizing we need to address our nation's high 
schools. I am not yet sure if there is a federal role, or what that 
role would be, but I remain committed to learning more and doing 
whatever I can to make high schools part of the education reform 
dialogue.
    The private sector is uniquely qualified to help address the 
challenges of high school reform, because businesses recognize the 
importance of a strong secondary education in preparing students for 
future success. That's why so many in the business community have 
joined with states and local communities to encourage innovation and 
meaningful reforms that will strengthen high schools and better prepare 
students for the future.
    We have begun to hear some fascinating stories about what is 
currently happening across the country with respect to high school 
reform. I look forward to hearing from today's witnesses concerning the 
need for reform, and the partnerships they have formed.
    I thank you all for being here this afternoon, and look forward to 
hearing from our witnesses.
                                 ______
                                 
    Chairman Castle. I will now yield to the gentlelady from 
California, the Ranking Minority of the Subcommittee, 
Representative Woolsey.

STATEMENT OF HON. LYNN C. WOOLSEY, RANKING MEMBER, SUBCOMMITTEE 
 ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Ms. Woolsey. Thank you, Mr. Chairman, for holding today's 
hearing, and thank all the witnesses for being here. I look 
forward to hearing what you have to say.
    We are going to hear from various corporations that have 
been on the front line of high school reform, knowing full well 
that your corporations and all corporations have a huge stake 
in the success of our education system, and we appreciate that, 
and we know that is where you are coming from.
    As we move forward, I hope that we will also hear from 
school administrators, from teachers, from parents and students 
about their experiences and what they think we can do 
differently. Certainly our high school system needs reform and 
greater resources if our country is to compete in the 21st 
century economy. There are also many outstanding high schools 
and educators who can and will lead the way, and I think it is 
essential that we listen to them also.
    There isn't much doubt that high school reform is a 
critical issue. As we will hear today, about one-third of 
entering ninth-graders do not graduate from high school. Among 
minority students, barely half graduate from high school. Only 
about half of the students who do graduate go on to college, 
and many of them are not really ready for college. About one-
third need remedial courses. And of those students who go 
directly from high school to the workforce, nearly half do not 
have the skills that they need. That might have been OK in the 
industrial age, but it is not nearly good enough for today's 
knowledge economy. And regardless, it is not good enough to 
just meet the moral obligation that each generation has to 
educate its children.
    In his recent article, It's a Flat World After All, Thomas 
Friedman explains that America's historical and economic 
advantages have disappeared now that the world is flat, and 
anyone with smarts, access to a Google and a cheap wireless 
laptop can join the innovation fray. But it will be impossible 
for our country to continue to lead the world in innovation if 
our high school system is not among the best in the world.
    There are many aspects to high school reform, but I am 
especially pleased that two of our witnesses include the 
importance of increasing girls' interest in science and math so 
that our technology workforce can draw from the greatest 
possible pool. As Dr. Susan Hockfield, the president of the 
Massachusetts Institute of Technology, said recently, 
squandered talent is one of the key issues of women in science 
and engineering.
    Another thing we should do right off the bat is to fully 
fund the No Child Left Behind Act. The vast majority of NCLB, 
we call it, funds go to elementary schools. But if we fully 
funded NCLB this year, we would increase support for high 
schools by 79 percent. Unfortunately, the education 
appropriations bill that the House recently passed cut funding 
for No Child Left Behind by about 3 percent and cut funding for 
education technology by about 40 percent.
    This issue is about both resources and reform, and I look 
forward to hearing our witnesses talk about the efforts that 
their companies have undertaken to reform America's high 
schools and how a private-public partnership will help every 
high school student achieve to the level required for the 
student's success and for the success of the United States 
economy. I look forward to hearing from you. Thank you.
    Chairman Castle. We have a very distinguished panel of 
witnesses before us, and I thank them for coming today. Mr. 
Bill Shore serves as director of U.S. Community Partnerships at 
the GlaxoSmithKline Corporation. In this capacity, Mr. Shore is 
responsible for building relationships with key external 
stakeholders. He also heads the corporate contributions 
committee, which determines GlaxoSmithKline's corporate 
investments in the U.S. Mr. Shore has served on the board of 
directors for groups, including the North Carolina Business 
Committee for Education and the North Carolina Public School 
Forum. He is a former member and chairman of the board of the 
Durham Public Education Network and is currently chair of the 
U.S. Business Education Network for the U.S. Chamber of 
Commerce.
    Ms. Sarah Revi Sterling serves as senior program manager of 
university relations at Microsoft. She currently leads 
Microsoft's efforts to increase participation of women in 
computer-related majors and improve retention of women with 
technical expertise. Ms. Sterling also chairs the Workforce 
Alliance of the National Center for Women and Information 
Technology, a team of senior-level employees from the 
technology sector, including Hewlett-Packard, Intel, Cisco, 
IBM, Google and Microsoft.
    Mr. Mike Watson, a senior director of community relations 
for BellSouth Corporation and vice chairman of the board of the 
BellSouth Foundation. In his capacity, he is responsible for 
all community programs for the corporation, including the 
BellSouth Foundation community relations programs, corporate 
giving program, volunteerism as well as executive customer 
relations and customer information programs. Mr. Watson's 
telecommunications career spanned over 30 years. Prior to his 
telecommunication career, he served his country for 4 years as 
an officer in the United States Navy.
    Dr. Phyllis Hudecki is the executive director of the 
Oklahoma Business and Education Coalition, a business-led 
nonprofit organization dedicated to improving public education 
in Oklahoma. This organization is sponsored by 31 of the 
State's leading corporations, which allows them to support a 
number of initiatives, including the Oklahoma Scholars Program, 
to encourage students to take rigorous courses in high school. 
Prior to her current position at the Oklahoma Business and 
Education Coalition, Dr. Hudecki has served in a number of 
roles, including associate director of the National Center for 
Research and Vocational Education at the University of 
California, Berkeley; State director for career technical 
vocational education at the Iowa State Department of Education, 
and program specialist at the U.S. Department of Education in 
Washington, D.C.
    I would like to remind the Members we will be asking 
questions after the entire panel has testified. Committee rule 
2 imposes a 5-minute limit on all questions. I think you all 
understand the rules, too. You are going to get lights, green 
for 4, yellow for 1, and when it gets to red, you want to start 
thinking about wrapping up if you could.
    I have introduced you individually. Let me just welcome you 
collectively and thank you for being here. You are all part of 
what we hope will be the solution in dealing with education in 
America perhaps from a different angle than what we are used 
to. We deal with a lot of teachers and administrators, but the 
private sector has gotten more and more involved very 
beneficially, and we are delighted to hear what you have to 
say, and I am sure we are going to have a few questions.
    We will go across, and we still start with Mr. Shore.

    STATEMENT OF BILL A. SHORE, DIRECTOR OF U.S. COMMUNITY 
   PARTNERSHIPS, GLAXOSMITHKLINE, RESEARCH TRIANGLE PARK, NC

    Mr. Shore. I am with a high-tech company, can you tell?
    Mr. Chairman and Members of the Subcommittee, good 
afternoon. I am Bill Shore, director of U.S. community 
partnership for GlaxoSmithKline. Thank you for inviting me to 
speak today on an issue that is very important to our company 
and very important to the U.S. Chamber of Commerce and very 
important to businesses, large and small, reform of high school 
education in America.
    Let me begin by telling you why the issue of K-through-12 
education and specifically high school education is so 
important to my company, the U.S. Chamber and to me personally. 
I work for a company that is headquartered in the Research 
Triangle Park in North Carolina, and as you may know, that 
Research Triangle Park is pretty well known and well respected. 
We have IBM's largest facility in the world there. We have 
GlaxoSmithKline, and we have other companies. And it is 
critical to our continued success to have a top-notch high 
school education system in that area to be able to draw talent 
from.
    We have been very fortunate that North Carolina continues 
to be a leader in the U.S. in terms of educational improvements 
due to the excellent leadership by former Governor Jim Hunt and 
our current Governor Mike Easley. We have strong leadership. We 
are very fortunate to have strong leadership in the business 
community in our area. And GSK, I am proud to say, has been in 
the forefront of leading a coalition of public-private partners 
to focus on school reform efforts.
    I have in my written testimony a lot of the details 
associated with what we have been doing as a company over the 
years, and it really is quite a list. I do want to mention the 
philosophy that draws our involvement to public schools. As you 
would imagine, we are asked to fund a lot of projects and 
programs. We contend that we are not--if we are not making a 
difference in the classroom, we are wasting our time and 
resources. We learned through experience years ago you just 
can't write a check and expect to make a difference. The money 
is gone quickly, and the impact is sometimes minimal.
    If anyone asks why high schools must reform, the answer to 
that question lies in the presentation that was made by the 
superintendent of public schools in Durham, North Carolina, 
recently, and it mirrors what we have already heard this 
morning. 30 percent of high school students fail to graduate. 
Fifty percent of minority ninth-grade students failed to 
complete high school in 4 years, and over 2,000 U.S. public 
U.S. High schools the senior class is 60 percent smaller than 
the freshman class that entered 4 years earlier. Thirty-three 
percent of freshman must enroll in remedial courses. We have 
situations where in companies, in community colleges and 
university systems, high school graduates have to take remedial 
programs.
    GSK is a high tech company that relies on being able to 
hire the cream of the crop. We have to be able to compete 
globally. We would love to able to home-grow our talent as 
opposed to hiring them from other places. We have to have top-
notch high schools to be able to do that. We draw a parallel 
between our business and the world of K-through-12 education. 
It takes an average of 14 years and around $800 billion to get 
one drug on the market. That is the length of time it takes a 
child to enter first grade and complete all the way through 2 
years of college.
    We think putting resources on the front end of this 
education issue is so critical. Currently we spend somewhere 
between 30,000 and $60,000 to keep one person in prison a year. 
That is a lot more than we spend to pay teachers on an annual 
basis, and more than it costs for a college education in some 
cases.
    The most important element to me is leadership. We are 
lucky. We have strong leadership by the business community. We 
have strong leadership by elected officials, and it shows in 
them being able to see our State increase as well as it has.
    How is our company contributing to K through 12? K-through-
12 education is the No. 1 social issue that almost every 
company looks to. There are public-private partnerships, and 
about 70 percent of the Nation's schools are providing goods 
and services to about 35 million students.
    The most important way a private sector can improve high 
schools is not by writing a check, but being willing to have a 
dialog and be a partner in the process of improvement. One of 
those things we are doing in the U.S. Business Education 
Network is creating an organization that is going to build 
relationships and capture the information on a national basis 
that is going on in every State. Three thousand local Chambers 
of Commerce and the business community are going to be able to 
interact in that way.
    I was at the national education summit 2 years back hosted 
by IBM. Lou Gerstner, who is the current CEO, said--talking 
about how the U.S. ranks in the world in terms of science and 
math. Of course this is going to be important to our company. 
We are like 18th or 19th. He said, if we rank the same in the 
world in Olympic basketball, we would quickly bring the pros 
in. I have to agree with him. We need a little outrage and the 
same kind of rallying around the flag that we had during the 
1960's for the space race, because I think this issue is that 
important. We have to fix our high schools, and as a company we 
want to be able to be a partner in doing that. Thank you very 
much.
    Chairman Castle. Based on our how Olympic basketball team 
did the last time, we may need to bring in somebody else. Thank 
you for your testimony.
    [The prepared statement of Mr. Shore follows:]

  Statement of Bill A. Shore, Director, U.S. Community Partnerships, 
              GlaxoSmithKline, Research Triangle Park, NC

    Mr. Chairman and members of the Subcommittee on Education Reform, I 
am pleased and honored to be here today. Thank you for your kind 
invitation. My name is Bill Shore and I am the Director of U.S. 
Community Partnerships for GlaxoSmithKline (GSK) pharmaceuticals.
    GSK is a world leading research-based pharmaceutical company with a 
powerful combination of skills and resources that provides a platform 
for delivering new medications for today's rapidly changing health care 
environment. GSK's mission is to improve the quality of human life by 
enabling people to do more, feel better, and live longer. Our social 
investment focuses on both health and education.
    Headquartered in the United Kingdom and with U.S. operations based 
in the Research Triangle Park, NC and Philadelphia, PA, the company is 
one of the industry leaders with an estimated seven percent of the 
world's pharmaceutical market.
    GSK has leadership in four major therapeutic areas--anti-
infectives, central nervous system (CNS), respiratory, and gastro-
intestinal/metabolic. In addition, it is a leader in the important area 
of vaccines and has a growing portfolio of oncology products.
    The company has a consumer health care portfolio comprising over-
the-counter (OTC) medicines, oral care products and nutritional health 
care drinks, all of which are among the market leaders.
    GSK has over 100,000 employees worldwide in 110 countries. The 
company has a leading position in genomics/genetics and new drug 
discovery technologies.
    It is interesting to note that it takes an average of 14 years and 
$800 million to get one drug to the market. . .the same length of time 
it takes for a student to enter first grade and complete two years of 
college.
    I am here today to testify on behalf of the U.S. Chamber of 
Commerce, the world's largest business federation, representing more 
than three million businesses of every size, sector and region. Chamber 
members, like GSK, are concerned about advancing the education of our 
high school students and strengthening the economic base of their 
communities. Through greater education reform of our high schools comes 
the strengthening of our skilled workforce. Local and state Chamber 
members represent broad networks of employers across the nation. This 
network, unlike any other entity, is uniquely positioned to bring 
together people and business to assist in the advancement of high 
school reform. The Chamber is committed more than ever to quality 
education issues and workforce development.
    I serve on the U.S. Chamber of Commerce Center for Corporate 
Citizenship (CCC), a 501(c)3 nonprofit Chamber affiliate that supports 
businesses helping out their communities. The CCC is an instrumental 
arm of the Chamber in championing the need to strengthen U.S. student 
achievement.
    In addition to representing the Chamber, I will provide a personal 
and corporate perspective on the subject matter of today's subcommittee 
hearing, which is the critical role of education reform at the 
secondary education level, its impact on our country's global 
competitiveness, and preparing our workforce for the 21st century. I 
have spent much of my career working on education issues and reform for 
GSK and more recently in conjunction with the U.S. Chamber of Commerce. 
I have been on the board of trustees for North Carolina Central 
University in Durham, a historically black university. I have chaired 
Public Education Network programs and committees at the local, state, 
and national levels. Additionally, my wife and one of my daughters are 
educators, with my daughter teaching students with learning 
disabilities. Corporately and personally I believe I have a perspective 
on American education that is hands-on and current.
    As we all know, the primary focus of the past 20 years has been on 
grades K-8, and rightfully so. If students can not read, write, and do 
math at the 8th grade level, when they leave middle school, their 
chances of succeeding in high school are greatly diminished. Now, it is 
time for us to focus on the high school experience. We need to ensure 
that a high school diploma is more than a certificate of attendance. 
There are many organizations, educators, elected officials, and 
businesses that have been shining a spotlight on this issue over the 
past few years, and now the center of our attention is on how to 
provide an excellent K-12 education for all students.
    Currently, companies, community colleges, and universities on a 
national level have to provide remedial training for many high school 
graduates who are not adequately prepared to be successful in the next 
step of their education or in their jobs. The efforts of this 
subcommittee on high school reform, hopefully, will help address the 
problem.
    In my opinion, the most important element of being successful in 
helping states and communities improve high schools is leadership. We 
must have strong leadership from the business community, the 
educational community and from elected officials to ensure strong and 
effective public-private partnerships. We need leadership to agree on a 
vision of where we want to be as an educated society. We need to focus 
on high standards, effective accountability measures, and rewards for 
excellence.
    In North Carolina we have benefited from that leadership. Thanks to 
the vision and determination of former Governor Hunt, current Governor 
Easley, and the strong leadership of the private sector, North Carolina 
has developed a reputation as a state that is making great strides in 
K-12 educational improvement over the past 10 years. The business 
community has been critical to this success.
    GSK is proud to be one of the companies that has provided strong 
leadership to help ensure the type of partnership environment that 
exists in our state will help students be successful. On behalf of GSK, 
a number of employees have put a great deal of time, effort, and 
resources into our role as a community leader. For example: The Vice 
Chairman of our pharmaceutical business, Robert Ingram, attended two 
National Education Summits, as the guest of Governor Hunt. These 
summits were hosted by Lou Gerstner at IBM and were coordinated by the 
National Governors Association. Each governor invited one CEO from his 
or her state. I was fortunate to be included with the small contingent 
from North Carolina.
    GSK and IBM led the effort to conduct a North Carolina Business 
Education Summit following the national summit. Governor Hunt and Mr. 
Ingram were Honorary Chairs and I served as co-chair of the planning 
committee along with my counterpart at IBM. We brought leaders in K-12 
education, business, elected officials, and the statewide university 
system to discuss reform efforts in our state.
    In addition to the statewide summit, I have been fortunate over the 
years to serve as chairman of the Durham Chamber of Commerce Public 
Education Committee, the North Carolina Communities in Schools Board of 
Directors, the Durham Public Education Network, and now the U.S. 
Chamber's U.S. Business Education Network Task Force.
    I have been privileged to serve as a board member of the North 
Carolina Business Committee for Education, the Public School Forum of 
North Carolina, the North Carolina Standards and Accountability 
Committee, the Durham Technical Community College Foundation Board, the 
North Carolina Central University Board of Trustees, the Conference 
Board's Business Education Council, and a number of other local and 
statewide initiatives that have addressed K-12 education improvement 
efforts. I served in these roles because GSK cares very deeply about 
the education of our students, the quality of our teachers, and the 
role of our company in helping these students to succeed. I do not 
think we can spend our time, resources, and leadership skills on a more 
important issue. For us, it is the right thing to do. As a high-tech 
company with long-term requirements for a highly-educated workforce, it 
is in our best interest to make K-12 education one of our top 
priorities. Mary Linda Andrews, my colleague here today, continues to 
serve along with me and others on education boards and serves as 
advisor on education-related efforts in North Carolina and 
Pennsylvania.
    Overall, you might ask--how are companies contributing to K-12 
education? Companies rank education as the number one social issue that 
they should help to address.\1\ According to a study by The Council for 
Corporate and School Partnerships, they contribute approximately $2.4 
billion dollars to K-12 education.\2\ By way of comparison, this is 
more than is spent on all corporate public policy advocacy and lobbying 
combined. And this does not take into consideration the leadership and 
volunteer time that companies and their employees provide to schools.
---------------------------------------------------------------------------
    \1\ The 2003-2004 Survey on the State of Corporate Citizenship In 
the U.S. was conducted by the CCC and Boston College with a grant from 
Hitachi. The survey examined attitudes and expectations of leaders of 
small, medium and large companies regarding the definition and role of 
corporate citizenship and its alignment with standard business 
practice. This survey showed that education was the number one issue in 
which the business community felt it should be playing an active role.
    \2\ The Council for Corporate & School Partnerships Guiding 
Principles for Business & School Partnerships at 4, available at http:/
/www.corpschoolpartners.org/pdf/guiding--principles.pdf.
---------------------------------------------------------------------------
    There are public-private partnerships in approximately 70% of the 
nation's school districts, providing goods and services to 35 million 
students. Individual companies focus on different education needs. Some 
focus on math and science (GSK, Bayer, Siemens, Westinghouse), others 
on history (Siemens), others on ethics (Deloitte), others on social 
studies and cross-cultural skills (Target), and still others on 
literacy (GSK, Coca-Cola and Verizon).
    Companies also engage with students throughout the learning 
process, whether at pre-K (GSK), after school (Wachovia and GSK), in 
high school (Microsoft and GSK) or in college, MBA, and Ph.D. programs 
(KPMG).
    Companies also focus on the enabling environment for teachers and 
students. Organizations like Communities in Schools--which provides 
social services to needy students so that teachers can focus on 
teaching--receive corporate support in over 30 states. Office Depot 
distributes over 250,000 backpacks full of essential school supplies to 
needy children. TimeWarner works with teachers and superintendents with 
organizations like New Leaders New Schools.
    Chicago-based QuamNichols' CEO Bill Little, and many other 
corporate leaders like him, works with Janet Knupp and her group, the 
Chicago Public Education Fund, in a partnership that addresses a broad 
range of education issues in Chicago. Other geographic-based public-
private partnerships have developed in other cities around the 
country--most notably the Boston Compact and the Washington Compact.
    While there are a wide range of success stories, there is an 
increasing feeling in the business community that more needs to be done 
at a national level. That is why a group of leading companies like GSK, 
and others have come together to create the U.S. Business Education 
Network (USBEN). USBEN is a new business coalition staffed by the CCC 
of the U.S. Chamber of Commerce. USBEN is dedicated to harnessing the 
power of the business community to address issues facing the U.S. 
education system as it prepares our children for the future. USBEN is 
working to build relationships between partners, share success stories, 
and link practices to policies to ensure lasting change. I am 
privileged to chair this task force.
    The point is, business support for education is not about 
philanthropy--cash contributions are just the tip of the iceberg. 
Business engagement with education can span a wide spectrum, including:
    <bullet>  developing/understanding the skills required to be 
successful at companies like GSK;
    <bullet>  advocacy;
    <bullet>  advice about process management;
    <bullet>  motivation;
    <bullet>  mentoring;
    <bullet>  standards and accountability;
    <bullet>  capacity building; and
    <bullet>  encouragement.
    Already some of the top business supporters of education have 
started to come together, but more needs to be done. We fully recognize 
that students are ultimately responsible for their own success, and 
that teachers are on the front lines of making that happen. GSK, the 
business community, and the Chamber are deeply concerned about the 
future of our educational system. It affects our society and our 
economy in so many ways. We want to continue to increase our engagement 
and support for improving student achievement and the effectiveness of 
our education system to respond to 21st century workforce requisites 
and economic conditions.
    I should also note that the Chamber is already involved in specific 
educational efforts to promote education and skills training of our 
workforce after graduation from high school. The U.S. Chamber of 
Commerce Center for Workforce Preparation (CWP)--in partnership with 
local chambers, other workforce development organizations, and 
funders--has been instrumental in defining and demonstrating the unique 
role of local chambers in workforce development and education. CWP's 
priority goals include promoting and supporting effective education and 
training initiatives concerning workforce excellence; conducting and 
supporting research that will develop more effective worker training 
programs; initiating and documenting promising education and workforce 
preparation programs that can be replicated by chambers of commerce and 
their small business members at the local level.
    Now, I'd like to share why GSK has been a supporter of education 
and its continued reform for decades. There are many reasons for this 
support:
    1)  It is part of our corporate focus to give back to the 
communities where our employees live and work.
    2)  We want to help ensure that our employees have the best 
education possible for their families (all corporations want this).
    3)  We need a highly-educated workforce for our business.
    4)  We believe that education is the key to helping resolve many of 
today's social issues. It is much less expensive to proactively educate 
a child than to have that child live in poverty with potentially 
enormous future societal costs, including incarceration, if that child 
cannot become a productive adult member of the workforce. Estimates of 
the cost per year in prison range from $30,000 to $60,000 per year. 
That is more than we pay teachers per year in many of our communities.
    The magic bullet for education reform does not exist. There must be 
a concerted effort at the local, state, and national levels. In 
conjunction with the U.S. Chamber of Commerce and the U.S. Department 
of Education, GSK is helping to lead the way as we jointly take a more 
meaningful look at how education can be reformed and how that will 
impact the U.S. position in our global economy. Our nation's education 
system forms the basis for skills that the U.S. workforce develops. It 
is the bedrock for research and development, and it contributes 
fundamentally to the development of our communities and the 
cohesiveness of American society.
    I will highlight some of the ways GSK is partnering on the state 
and local levels in North Carolina.
    The North Carolina New Schools Project--an initiative of North 
Carolina Governor Mike Easley and his Education Cabinet funded in part 
with an $11 million grant from the Bill and Melinda Gates Foundation--
aims to create 40 to 50 new and redesigned high schools across the 
state. The New Schools Project will reform high schools and better 
prepare students for the workforce and college. GSK has provided 
leadership on the Advisory Board and has underwritten town hall 
meetings with superintendents and business leaders in school districts 
that will benefit from these efforts.
    The first round of funding from the New Schools Project is focused 
on health science schools. Each of the grant recipients is committed to 
creating new high schools and schools within existing schools that have 
a focus on the health sciences. They will be developed in conjunction 
with regional health care and higher education partners. These schools 
will be academically rigorous. GSK will continue to support the next 
round of schools, which will focus on middle college and early college 
high schools in partnership with the community colleges and public and 
private colleges and universities.
    Many school systems in the U.S. have experienced their share of 
struggles: 30% of high school students fail to graduate; 50% of 
minority 9th grade students fail to complete high school in four years; 
in over 2,000 public U.S. high schools the senior class is 60% smaller 
than the freshman class that entered four years earlier; only 32% of 
high school graduates are ready to attend a four year college; 33% of 
the freshmen must enroll in a remedial course; and 50% of the freshman 
class fail to earn a degree in six years.
    The number and types of industrial working class jobs have 
dramatically decreased. Good middle class jobs now require skills 
acquired through high levels of education, and almost all jobs require 
complex problem-solving, effective communication skills, and the 
ability to exercise independent judgment while working in groups.
    How will communities resolve this situation? In Durham, NC, Dr. 
Anne Denlinger, superintendent of Durham Public Schools (DPS), is 
focused on high school reform because there is stagnant growth in 
student achievement, unacceptably high suspension and dropout rates, 
too few students graduating in four years, increased state graduation 
requirements, and there are too few students--particularly African-
American and Hispanic--in higher level classes.
    DPS created a High School Reform Committee, with teams from each 
high school that will meet twice a month for one year to develop 
strategies for high school improvement. The goal is to ensure that all 
students will graduate from high school ready for the next level of 
their education or ready to work at a skilled job.
    This results-oriented committee will collect and analyze data, 
determine best practices, and design strategies. They will examine 
current and historical data and ``benchmark'' against national 
standards. They will increase academic rigor and expand support; 
increase relevance and improve relationships; align structure, 
calendar, and schedule for more personalized education; involve 
parents, community agencies, and businesses in high school reform; and 
recruit, retain, and develop highly qualified teachers.
    Further, they will adopt three measurable goals and after nine 
months' work, will agree on five broadly focused areas. They will 
brainstorm and agree upon high-leverage district strategies for each 
area. Schools will develop action plans to align with districtwide 
strategies, and school teams are expected to share committee work with 
faculty, staff, and parents.
    Durham has a vision for reforming its high schools and it has a 
vision for its students: By 2013, 100% of students graduate from high 
school in four years; by 2009, 90% of graduates complete a college prep 
course of study; and by 2009, 80% of graduates meet University of North 
Carolina system admission requirements.
    Already, Durham has increased graduation requirements, provided 
staff development for all high school teachers in using effective 
teaching strategies for the block schedule, designed support courses 
for ECP students, provided schools with SAT prep software, and held an 
AP teacher assembly on access and equity.
    The school system has or is implementing an Early College High 
School, a City of Medicine Academy, Ninth Grade Academies, and Middle 
College High Schools.
    Shouldn't we, as a country, have such a vision and expectations?
    GSK provides leadership on the executive board of the North 
Carolina Business Committee for Education (NCBCE). Together we want to 
improve tomorrow's employees through education reform.
    NCBCE has established a Center for 21st Century Skills to design 
curriculum, teacher training, and student assessments to support 
students in acquiring knowledge and skills to prepare them for further 
education and for the present and future workforce. The Center will 
work closely with the New Schools Project with an initial focus on high 
school reform. The Center will also work with the North Carolina 
Science, Math, and Technology Education Center; the North Carolina 
School of Science and Math; the Board of Science and Technology; and 
governing boards of education (State Board of Education, Community 
College, and University) to research and propose options to create new 
or expand existing math and science summer programs across the state 
and to establish regional math and science programs for high achieving 
high school students. The Center will also support efforts of the 
Futures for Kids program that connects students with the workforce 
needs of their home communities. GSK provided the seed funding for the 
Futures for Kids program and has continued in an advisory capacity to 
the program. GSK recognizes that it takes a collaborative effort to 
reform schools.
    GSK staff took a leading role in the review of the North Carolina 
science curriculum to help reform it so that inquiry-based science kits 
would be available as part of the curriculum.
    GSK supports the Public School Forum of North Carolina (Forum) with 
funding and leadership. The Forum is a not-for-profit policy think tank 
and partnership of business leaders, educational leaders, and 
governmental leaders in North Carolina that has made a significant 
contribution to schools across the state. The Forum has set the public 
policy framework for North Carolina's entry into school accountability 
with the passage of the School Improvement and Accountability Act. The 
Forum has proposed major changes to the way in which North Carolina 
funds its schools--changes that have resulted in over $100 million of 
supplemental funds going to low wealth and small schools each year and 
the establishment of the North Carolina School Technology Fund. The 
Forum has created a one-of-a-kind Institute for Educational 
Policymakers, a capacity-building center that focuses on members of the 
General Assembly, the State Board of Education and reporters who cover 
their actions.
    High school reform means that all students have access to the same 
quality education, including teachers, special services, and 
educational materials. The quality of a child's education should not 
depend on the wealth of their family or the wealth of their 
neighborhood. To help equalize the education of disadvantaged children 
or children whose schools are at a disadvantage, GSK supports multiple 
programs.
    GSK recognizes that teacher development is an integral key to 
student success. When you impact one teacher, there is a cascading 
effect on thousands of students over the teacher's career. GSK provided 
a three-year, $300,000 grant to the National Board for Professional 
Teaching Standards (NBPTS) to increase the number of science teachers 
pursuing National Board Certification in the Research Triangle Park 
area of North Carolina and in the Pittsburgh and Philadelphia areas of 
Pennsylvania.
    GSK was instrumental in establishing the Destiny Traveling Science 
Laboratory Program and we continue to be a major sponsor of the 
University of North Carolina's traveling science laboratory, Destiny, 
since its inception in 1999. Destiny is a fully selfcontained lab that 
accommodates 12 lab stations for a total of 24 students. Destiny 
visited 90 under-served secondary schools and reached 4,000 students 
during 2004. The program encourages women and minority students to 
pursue science careers.
    GSK gave a three-year grant to Juniata College and Drexel 
University for transition and start-up costs of the Science in Motion 
(SIM) program. SIM endeavors to improve performance in science and math 
among high school students statewide in Pennsylvania. The program 
models teacher preparation recommended by the National Science Board. A 
mobile educator serves high school teachers by visiting classrooms once 
a week to facilitate introduction of advanced equipment and modern 
technologies.
    For over 18 years, GSK has been supporting public education 
networks in North Carolina and Pennsylvania. These community-based 
public school advocacy groups link human and material resources to 
strengthen public schools. They leverage private contributions to 
ensure the greatest possible impact in every school and also are a 
facilitator of community involvement in public schools. Some of the 
programs that GSK supports are K-8 Science Initiative, local education 
summits, Food for Thought Teacher grants, Leadership Academy, and Task 
Force on Teacher Excellence.
    GSK is a supporter of the Kenan Fellows Program, an innovative 
model to promote teacher leadership, address teacher retention and 
advance K-12 science, technology and mathematics education. Kenan 
Fellows are public school teachers selected through a competitive 
process to participate in a prestigious two-year fellowship, all while 
remaining active in the classroom. During these two years, Kenan 
Fellows work in partnership with distinguished scientists, university 
faculty, and the Department of Public Instruction, developing 
curriculum and teaching resources that bring cuttingedge research into 
the hands of students. Kenan Fellows are scientists, inventors, authors 
and leaders in our classrooms bringing curriculum to life!
    Student scholarships are important because far too many high school 
students are not as motivated if they do not believe that they have a 
chance to continue their education due to finances. Since 1994, the GSK 
Science Achievement Award has been a competitive award available to 
graduate students in chemistry, medicine, and the biological sciences 
through the United Negro College Fund (UNCF). UNCF is the nation's 
oldest and most successful minority higher education assistance 
organization. GSK also has provided support for the minority scholars 
program through the American Chemical Society.
    The GlaxoSmithKline Opportunity Scholarships are awarded annually 
to persons who ``have the potential to succeed despite adversity and 
have exceptional desire to better themselves through further education 
or training.'' The endowment for this GSK program currently stands at 
more than $700,000.
    GSK endowed four North Carolina community colleges with a total of 
$400,000. Eligible students must be enrolled in an electrical/
electronics technology, electronics engineering, biotechnology, 
computer engineering technology, industrial pharmaceutical technology 
or industrial systems technology program, or currently pursuing an 
associate's degree in science or other approved science or engineering 
related curriculum. Students must also demonstrate financial need. 
Selected students carry the distinction of the ``GlaxoSmithKline 
Scholar.''
    In addition to GSK's corporate focus on education, the North 
Carolina GSK Foundation provides about two million dollars a year in 
grants to programs supporting education in the state. The Foundation 
also runs the GSK's Women in Science (WIS) program, which is committed 
to reversing the trend of under representation of women in fields like 
chemistry, medicine, mathematics and pharmacology. The WIS program 
pairs outstanding undergraduate women at North Carolina colleges and 
universities with GSK women scientists working in laboratories and 
other environments conducive to further study and research. Our 
scientists, as mentors, guide students along pathways to learning more 
about rewarding careers in the sciences. The students, as scholars, 
gain a vicarious view of corporate life as mentors show them, by 
example, that women can succeed in science.
    Over the years, GSK has been proud to provide funding, employee 
volunteers and/or leadership to many organizations focused on improving 
our K-12 education system. In addition to the programs listed above, 
other programs include the following:
    American Association for the Advancement of Science--Science in the 
Summer
    America Reads
    Challenger Center for Space Science Education--Sally Ride Science 
Festivals and Club
    Children's Literacy Initiative--provides literacy training for 
Teach for America
    Children's Village--literacy curriculum for students and teachers
    City Year Greater Philadelphia--tutoring and mentoring to low 
performing schools
    Communities in Schools
    Durham Academy--minority scholarships for high school students
    Durham Academy--Summer Science Institute for high school students 
in North Carolina
    Franklin Institute--Partnerships for Achieving Careers in 
Technology and Science
    Greater Philadelphia Cares--Reading STARS, a volunteer-based 
literacy program
    Hill Center--teacher training to recognize and work with students 
who have learning disabilities (includes an evaluation component)
    Lincoln Hospital School of Nursing--scholarship endowment for 
minority students
    Lowes Grove Middle School--corrective reading literacy program
    MSEN--science education leadership institute
    National Humanities Center--teacher leadership and professional 
development
    North Carolina Central University--Biotechnology Institute
    North Carolina Infrastructure for Science Education (NC-ISE) 
programs--preparing science teacher leaders as facilitators for 
statewide training of K-12 teachers for implementation of inquiry 
science in North Carolina schools
    North Carolina School of Science and Math
    North Carolina State University--learning technology programs for 
high school students
    Peace College--leadership development for pre-college girls
    Philadelphia Education Fund--state and national Middle Grades 
Matter programs
    Project Graduation--scholarships
    PTAs support through our ``GSK Investment in Volunteer Efforts'' 
program
    Science Fair support in North Carolina and Pennsylvania--teacher 
workshops and judges
    Summer Technology Institute--for teachers in North Carolina
    Teach4NC--Web site showing individuals from all professional 
backgrounds how to obtain their North Carolina teaching license
    Thomas Jefferson University--science outreach program that brings 
science classrooms through a mobile zebrafish lab and teacher workshops 
for Philadelphia public schools
    Total Quality Education Efforts
    Teach for America--support for science teachers
    United Innoworks Academy--summer science workshops
    U.S. Department of Education--No Child Left Behind blue ribbon 
schools conference
    Wistar Institute of Anatomy & Biology--high school summer science 
fellows
    In conclusion, we must not relax our efforts to win the high school 
reform battle. On the contrary, it is imperative that we strengthen our 
efforts by making this a nonpartisan goal, as we did with the space 
program in the 1960s. My sense is that our education issues are more 
compelling than ever before. The country expected us to be competitive 
in the race for space travel and with combined, concerted efforts and 
strong leadership we rose to the top. We can and we must have the same 
expectations for educating our youth as they prepare to lead in the 
21st century. It is incumbent upon us to lead the way to changing the 
horrifying educational statistics we continue to hear.
    GSK is in the business of helping to improve the quality of human 
life for millions of people around the world. This should be the same 
goal of the United States as we educate our students--our leaders of 
tomorrow. Everyone shares this common goal of providing an excellent 
education for all of our students in order to provide an opportunity 
for an improved quality of life.
    If we do our part, our children will do more because they are 
better educated. College graduates make $1 million dollars more in 
their lifetime than non-graduates. They will feel better, not only 
about themselves and their accomplishments, but they are more likely to 
be in better health and live longer. Statistics show that educated 
people take better care of themselves.
    These trends will enable the U.S. to thrive and take a stronger 
position in a global economy that is becoming increasingly competitive. 
As a corporation, we have the right to expect great things from our 
students and we have the responsibility to assist schools in their 
understanding of what is needed to prepare students for jobs and for 
higher education.
    I would like to emphasize what many of us already know--U.S. 
students are slipping globally in math and science. The views of the 
Report to the Nation from the National Commission on Mathematics and 
Science Teaching for the 21st Century are particularly instructive. The 
report notes:
        Our children are falling behind; they are simply not ``world-
        class learners'' when it comes to mathematics and science...The 
        Third International Mathematics and Science Study tested the 
        students of 41 nations. Children in the United States were 
        among the leaders in the fourth-grade assessment, but by high 
        school graduation they were almost last. Here at home, the 
        National Assessment of Educational Progress basically 
        substantiates our students' poor performance...In short, our 
        children are losing the ability to respond not just to the 
        challenges already presented by the 21st century but to its 
        potential as well...\3\
---------------------------------------------------------------------------
    \3\ Before It's Too Late: A Report to the Nation From The National 
Commission on Mathematics and Science Teaching for the 21st Century at 
4 (2000).
---------------------------------------------------------------------------
    This is of great concern to GSK and should be to all Americans, but 
especially to you, as leaders of our country. As a corporation strongly 
linked to and dependent upon a highly-educated workforce, we have to 
ask what we can do as collaborators to help strengthen and reform our 
educational system. As a team, we must ensure that our high school 
students are prepared to meet the work and educational challenges of 
the 21st century. Our global competitiveness depends upon it.
    Thank you. I am happy to take questions.
                                 ______
                                 
    Chairman Castle. Ms. Sterling.

 STATEMENT OF SARAH REVI STERLING, PROGRAM MANAGER, UNIVERSITY 
         RELATIONS, MICROSOFT CORPORATION, REDMOND, WA

    Ms. Sterling. Mr. Chairman and Members of the Committee, my 
name is Sarah Revi Sterling, and I represent the Microsoft 
Corporation, where I manage our gender equity programs in 
computer science through our External Research Team at 
Microsoft Research. I also represent the National Center For 
Women and Information Technology, an organization committed to 
increasing the participation of girls and women in information 
technology and computing, where I am the chairperson of the 
Workforce Alliance. I want to thank you for the opportunity to 
appear here today to discuss how the private sector is helping 
States and communities improve high school education and to 
highlight the challenges relating to the role of women in 
science and technology education.
    The future of U.S. competitiveness depends on our capacity 
to cultivate and maintain a diverse, innovative and technically 
trained workforce. U.S. students across the board are opting 
out of computer science often because of the false impression 
that there will be no jobs waiting for them when they graduate. 
But the situation among women is much worse. The number of 
women interested in computer science as a major has dropped 80 
percent between 1998 and 2004, and has dropped 98 percent from 
its peak in 1982. Some computer science departments at top 
research institutions have no women in their incoming freshman 
class. And out of the female students who do enter computer 
science, the attrition rate is between 40 and 60 percent. This 
trend away from computing starts earlier than college, but at 
the middle and high school levels.
    To meet these challenges, the National Center For Women and 
IT, or NCWIT, was formed recently with the mission to ensure 
all women are fully represented in the influential world of 
information technology and computing. NCWIT is a growing 
coalition of over 40 companies, academic institutions, the 
National Science Foundation and nonprofits working aggressively 
to understand and solve this problem.
    At the high school level, NCWIT's programmatic priorities 
include stimulating girls' interest in IT and promoting a 
positive image of female technology workers and the innovative 
work that they do. NCWIT has partnered with the Association for 
Computing Machinery, the Computer Science Teachers Association, 
the Girl Scouts of the USA and many high-tech companies to form 
a K-through-12 Alliance with the focus on attracting more girls 
into the study of computer science and assembling standards for 
computing education.
    NCWIT's K-through-12 Alliance and industry members are 
committed to sharing their promising practices to promote the 
recruitment, retention and advancement of girls and women in 
IT. Promising practices focused at the high school level 
include symposia to prepare girls for IT careers, summer camps 
that provide opportunities for girls to experience the 
multifaceted areas of computer science, programs for both 
students and parents to inform them about IT courses and 
careers and mentoring programs.
    The alliances that comprise NCWIT are committed to pursuing 
fresh thinking in building up the female technical workforce as 
the last 20 years of efforts have not positively affected this 
pipeline. Companies like Microsoft, Intel, Google and others 
are putting their best creative minds not just on new products, 
but on finding ways to engage younger students earlier.
    In addition to supporting an array of efforts with private- 
and public-sector partners like NCWIT, Microsoft has committed 
to invest over $35 million through our Partners in Learning 
program, a long-term commitment by Microsoft to partner with 
governments, schools and teachers to support the systemic 
changes needed to address many of the challenges I have already 
outlined. Partners in Learning also strives to address the 
unique expectations students have of schools, such as ensuring 
they have access to and the capability to effectively use 
advanced technology tools as part of their learning 
environment.
    In addition, Microsoft has been developing an educational 
prototype called the School of the Future scheduled to open in 
west Philadelphia in 2006. The School of the Future is rooted 
in the vision of an empowered community where learning is 
continuous, relative and adaptive.
    Microsoft has also funded a series of pilots with 
universities to increase the numbers of women from regional 
feeder schools choosing to major in computer science. These 
programs in their third year are showing success and increasing 
the number of female high school graduates excited about 
starting academic careers in technology.
    Mr. Chairman and Madam Ranking Member, the gender gap in IT 
threatens the ability of the U.S. to compete globally. We know 
that a more diverse talent will yield different products and 
better ideas, contributing to stronger U.S. economic 
performance. Girls and women must play an important role in 
fostering new innovations if the U.S. is to remain competitive. 
Working together, the public and private sectors can and must 
make swift and substantive changes in our educational and 
business institutions to promote an inclusive culture of 
innovation. America needs the talent of all its citizens, our 
competitiveness, security, and ultimately the health of our 
democracy depends upon this. Thank you very much.
    Chairman Castle. Thank you, Ms. Sterling. We appreciate 
that.
    [The prepared statement of Ms. Sterling follows:]

     Statement of Sarah Revi Sterling, Program Manager, University 
             Relations, Microsoft Corporation, Redmond, WA

    Chairman Castle, Ranking Member Woolsey, Members of the Sub-
Committee:
    My name is Sarah Revi Sterling and I represent Microsoft 
Corporation, where I manage our gender equity programs in computing in 
the External Research team of Microsoft Research. I also represent the 
National Center for Women & Information Technology (NCWIT), an 
organization committed to increasing participation of girls and women 
in information technology (IT) and computing, where I am chairperson of 
NCWIT's Workforce Alliance. I want to thank you for the opportunity to 
appear today to discuss how the private sector is helping states and 
communities improve high school education and higher education, and to 
highlight the challenges we face as a nation as it relates to the role 
of women in science and technology education--in particular women in 
information technology and computing.
    Mr. Chairman, the dearth of young women choosing technical courses 
and career paths is more than a gender equity issue. Department of 
Labor projections forecast that our economy will add nearly 1.5 million 
professional IT jobs by 2012--but the numbers of both male and female 
students joining the technical workforce is diminishing greatly each 
year. The ability of the U.S. to remain competitive as a leader in 
math, science and engineering is one of America's greatest national 
security and competitiveness concerns. The future of U.S. 
competitiveness depends on our capacity to cultivate and maintain a 
diverse, innovative, and technically-trained workforce.
    While U.S. students across the board are opting out of computer 
science as an undergraduate major often because of the false impression 
that there will be a limited number of jobs available upon graduation, 
the situation among women is worse. who choose computer science as an 
undergraduate major has declined every year since 1984. Mr. Chairman, 
the stark reality we face as a nation is that nearly one-third of 
American high school students will not graduate, and more than half of 
those who do are not ready for a four-year college in many instances 
because American high schools were designed for an industrial and not a 
knowledge economy.
    As Bill Gates recently stated ``...the heart of the economic 
argument for better high schools...says: we'd better do something about 
these kids not getting an education, because it's hurting us. But 
there's also a moral argument for better high schools, and it says: 
We'd better do something about these kids not getting an education, 
because it's hurting them.'' Educating students to be the future 
creators of software, devices, and communication systems is the only 
way we are going to be able to be globally competitive in innovation, 
research and development. Bureau of Labor Statistics projections from 
2002 show that information technology jobs will out-strip IT degree 
production by nearly a factor of two to one. This will cripple our 
competitive edge in high-tech industry unless high school curricula 
reform, teacher training practices, and perceptions about computing 
change nationwide.
    The gender gap in America's technical workforce represents our most 
significant opportunity to build an innovative and highly trained 
workforce for the U.S. to maintain its competitive edge. As 
corporations are increasingly aware, the gender gap creates significant 
negative economic consequences. Catalyst, a top professional gender 
research and advisory organization, has authored several studies and 
business cases that show a direct relationship between the diversity of 
a company's workforce and company earnings. The group of companies with 
the highest representation of women on their senior management teams 
had a 35 percent higher return on equity and a 34 percent higher total 
return to shareholders than companies with the lowest women's 
representation.
    A diverse talent pool creates more cutting edge and dynamic 
technology. Employing gender diversity in the innovation process yields 
a much wider range products and better ideas, contributing to stronger 
U.S. economic performance. We at Microsoft see firsthand the value of 
diversity in the research and development labs--a richness of 
perspectives creates far stronger products that take a broader array of 
consumer needs into account. Unfortunately, we simply cannot find 
enough women to hire into these jobs.
    The U.S. faces the challenge of attracting sufficient numbers of 
women and men candidates both to pursue degrees and careers in IT and 
computing. While it is true that women earn more than half of all 
bachelor's degrees conferred, they are conspicuously absent from 
technology fields of study. Newly reported data compiled by the Higher 
Education Research Institute at the University of California at Los 
Angeles shows the percentage of all incoming students interested in 
majoring in computer science has plummeted over the last four years. 
Between the fall of 2000 and the fall of 2004, the percentage dropped 
by 60 percent and is now 70 percent lower than its peak in the early 
1980s.
    The number of women interested in computer science as a major has 
fallen 80 percent between 1998 and 2004 and 93 percent since its peak 
in 1982. According to NCWIT data, in 2000, women accounted for only 28 
percent of all degrees in computer and information sciences, down from 
37 percent in 1984, and the percentages are lower at major research 
universities. Out of the female students who do pursue computer science 
degrees, the attrition rate is between 40 to 60 percent by the time 
they graduate. Although women make up nearly half the total U.S. 
workforce, they represent only 25 percent of all professional IT 
workers and represent only 11 percent of corporate officers at the top 
500 U.S. technology companies.
    The absence of girls and women in information technology careers 
limits the way that technology is developed, marketed, and consumed. 
Attracting, recruiting and retaining girls and women helps widen the 
talent pool, offering industry not only more qualified candidates to 
fill available positions, but a far greater chance at creating valuable 
new intellectual property and product lines. Women's participation in 
IT, as both its creators and its consumers, guarantees that it will be 
a dynamic force in our future; and technology's pervasive impact on all 
our lives makes women's participation an imperative.
    These industry and academic trends relate directly to a problem 
that is demonstrable in high school. Based on the National Center for 
Education Statistics recent report, Trends in Educational Equity of 
Girls & Women: 2004, even high school girls take mathematics and 
science courses that are at least as rigorous as the courses of their 
male counterparts. While computer use among girls has more than doubled 
since 1984, girls represent only 15 percent of test-takers in Advanced 
Placement (AP) computer science--the lowest female representation of 
any AP test. In a 2002 study conducted by the Women's Foundation of 
Colorado, the majority of girls surveyed expressed a greater desire 
than boys to work in a profession that had positive societal impact. 
Although technology is the very foundation on which these young women 
will be able to fulfill their professional aspirations, most girls do 
not yet perceive IT as a profession in which this is likely or even 
possible. Particularly at the middle and high school levels, educators, 
businesses, and the media must work to change the image of IT as a 
relevant, exciting discipline; the basis for communication and 
innovation, in all aspects of our lives. Consistent reinforcement of a 
``geeky'' image and the absence of mentors, teachers, and other role 
models in IT, confirm the stereotype of technology as inhospitable or 
incompatible to girls and women, and are cited as a major reason why 
girls show declining interest in math and science at the high-school 
level. We need high schools to aggressively communicate the message 
that the computing field will be the source of future innovations 
across society, particularly in academic areas that were once distinct 
from computing, but are now oftentimes intensively computational in 
nature.
    To meet these challenges the National Center for Women & 
Information Technology (NCWIT) was recently formed with the mission to 
ensure that women are fully represented in the influential world of IT 
and computing. NCWIT is a growing coalition of over 40 respected 
corporations, academic institutions, government agencies and non-
profits working aggressively to understand and solve this problem. As a 
community of change-agents NCWIT is committed to investing in research 
and education, determining best practices for progress, and 
implementing these solutions across the country. NCWIT believes in 
building a national ``infrastructure'' in order to support the 
systematic and focused approaches required to solve the gender gap in 
IT and computing.
    Through a nationally connected effort of programs, networks, and 
research, NCWIT is working to guarantee that women's perspectives and 
skills contribute significantly to the creation, development, 
consumption and application of IT. NCWIT is building a national 
infrastructure and working to connect all phases of the education and 
career pipeline, including K-12. Key to NCWIT's success is its ability 
to assess and disseminate effective practices to benefit girls and 
women in the IT field, to reuse what already works, to measure success 
with an annual scorecard, to raise the visibility of the issue, and to 
mobilize educational, industrial, and governmental communities focused 
on change. NCWIT works to cross-leverage and coordinate work from many 
organizations reducing duplication, encouraging reuse and improving 
efficiency, and generally creating a cogent national implementation 
plan.
    NCWIT is organized using a distributed model of existing efforts, 
established thought leaders, and assessment teams to provide a model 
that will encourage efficiency, support existing programs, unify like-
minded efforts, and leverage consolidated efforts for national impact. 
NCWIT's geographically diverse group of hubs, including academic 
institutions, industry initiatives, professional groups, and other 
organizations, acts as the flexible foundation for the creation and 
application of programs, research, and outreach.
    NCWIT is targeting promising practices and working to turn them 
into best practices that can be replicated and used by various 
institutions and organizations across the country.
    At the high school level, NCWIT's programmatic priorities include 
stimulating girls' interest in IT and promoting a positive, current 
image of technology workers, and the kinds of innovative work women can 
do in computing. NCWIT is partnering with the Association for Computing 
Machinery (ACM), the Computer Science Teachers Association (CSTA), a 
number of technology companies, and the Girl Scouts of the USA (GSUSA), 
to form a K-12 Alliance, with a focus on attracting more girls into the 
study of computer science and assembling standards for computing 
education. As an NCWIT hub, GSUSA is responsible for initiating, 
implementing, tracking, and measuring programs aimed at increasing 
girls' participation in IT and computing. With its high-profile 
reputation and national reach, GSUSA has extensive community contact 
and experience with influencing policy issues affecting girls.
    NCWIT's Academic Alliance and Workforce Alliances, such as the K-12 
effort, are committed to sharing their promising practices to promote 
the recruitment, retention, and advancement of girls and women in IT. 
Promising practices focused at the high school level include symposia 
to encourage girls to take courses that will prepare them for IT 
careers; summer camps that provide opportunities for girls to 
experience computer science through modeling and visualization 
programs, basic programming skills, and web site design; hands-on 
programs at universities with activities for both students and parents 
to inform them about university technology programs and encourage girls 
to pursue IT degrees; and mentoring programs. NCWIT is committed to 
pursuing fresh thinking in building up the technical female workforce--
the last 20 years of efforts have not affected the technical ecosystem 
positively. Companies like Microsoft, Intel, Avaya and others are 
putting their best creative minds not just on new products, but on 
finding new ways to engage students early and to dispel the myths and 
stereotypes that pervade the industry.
    As part of Microsoft's commitment, in 2006 NCWIT will publish the 
first annual Scorecard, a metrics-based research report that informs 
the public on the status and progress of girls and women in information 
technology. Such a publication does not exist today, and will serve as 
a critical tool in our collective efforts to increase the visibility of 
the issue, track long-term national progress, and educate all concerned 
stakeholders, including employers, legislators, teachers, and parents. 
Research for the Scorecard will be conducted and supervised by 
statisticians and social scientists, and the professionally printed 
report will be made available free and distributed nationally.
    In addition to supporting an array of efforts with private and 
public sector partners, Microsoft has addressed the significant 
challenges aligning the culture of education in America with the 
exigencies of the knowledge economy. For example, recent data indicate 
a growing disconnect between school systems and the students they 
serve: fewer than one-quarter of high school graduates feel that they 
were significantly challenged and faced high expectations in order to 
graduate from high school. In addition, an overwhelming majority of 
graduates say that they would have worked harder if their high school 
demanded more of them and set higher academic standards. Only 28 
percent of 12th graders say that schoolwork is often or always 
meaningful--down from 40 percent in 1983. Only 21 percent of 12th 
graders say that their courses are very interesting. Common among these 
surveys is an undercurrent of frustration that schools and teachers 
have not recognized, much less responded to, the underlying uniqueness 
of the students they serve.
    In an effort to address these challenges in the public education 
system, Microsoft has committed to invest over $35 million through our 
Partners in Learning program-a long-term commitment by Microsoft to 
partner with government, schools and teachers to support the systemic 
changes needed to address many of the challenges outlined above. 
Partnering schools receive financial and other types of support to 
develop new approaches to education that keep students engaged in their 
education while equipping them with the skills to succeed in the 
Innovation Economy. Partners in Learning also strives to address the 
unique expectations students have of schools, such as ensuring they 
have access to, and the capability to effectively use, advanced 
technology tools as part of their learning environment.
    In addition, Microsoft has been building an educational prototype 
called the ``School of the Future''-scheduled to open in West 
Philadelphia in September 2006. The School of the Future is rooted in 
the vision of an empowered community where learning is continuous, 
relevant, and adaptive. The school will serve as an educational model 
that nurtures student achievement through holistic reform of secondary 
education through the application of research and development practices 
as well as best-of-class technology solutions in nearly every area of 
the learning community, including curriculum delivery, community 
collaboration, back-office support, content creation, and dissemination 
of content and assessment.
    At the undergraduate level, Microsoft also has funded a series of 
pilots with universities to increase the numbers of women from regional 
feeder schools choosing to major in computer science. These programs, 
in their third year, are showing incremental success in the numbers of 
female high school graduates excited about starting their academic 
careers in technology. These programs seek to engage female students 
who would not normally classify themselves as math or science oriented 
but are interested in the human factor and creative aspects of 
computing, such as user interface design, artificial intelligence, and 
graphics. The early successes of these programs are now being emulated 
at several other universities who share concerns regarding negative 
perceptions held by high school girls about computing as a meaningful 
career.
    Mr. Chairman, the gender gap in information technology threatens 
the ability of the U.S. to compete globally. A diverse talent pool 
creates cutting edge and dynamic technology. Employing gender diversity 
in the innovation process yields different products and better ideas, 
contributing to stronger U.S. economic performance. Girls and women can 
and must play an important role in fostering new IT innovations if the 
U.S. is to remain competitive. Working together, the public and private 
sectors can and must make swift and substantive changes in our 
educational and business institutions to promote a culture of 
innovation that is inclusive and diverse. America needs the talent of 
all of its citizens: our competitiveness, security, and ultimately the 
health of our democracy depend on it.
                                 ______
                                 
    Chairman Castle. Mr. Watson.

STATEMENT OF MIKE WATSON, VICE CHAIRMAN, BELLSOUTH FOUNDATION, 
                          ATLANTA, GA

    Mr. Watson. Mr. Chairman and Members of the Committee, 
thank you for the invitation to speak with you today. In its 
2000 Pathways to Prosperity report, the Governors Workforce 
Education Task Force in one of our Southern States found that 
65 percent of the jobs in this century will require a 2-year 
degree or certification, yet only 32 percent of that State's 
ninth-graders will pursue a 2-year degree or certification; 20 
percent of the jobs will require a college degree; 28 percent 
of the ninth-graders will pursue a 4-year degree. The final 40 
percent of the State's ninth graders will pursue unskilled jobs 
because they either drop out of high school or lack the skills 
needed for employment. Only 15 percent of the jobs available 
will call for unskilled labor.
    The bottom line, workers are not ready for the modern 
workplace. The world of technology requires strong mathematics 
and science skills plus the ability to read, to write well, to 
think and reason, and to explain complex concepts.
    At BellSouth, we believe that systemic and lasting change 
can only happen if our school leaders have the competence and 
capacity to drive reform in their districts. That is why the 
BellSouth Superintendent Leadership Network, a group of 50 
superintendents across the Southeast, will focus on high school 
improvement over the next 2 years and provide their analysis, 
insight and input to State, regional and national high school 
redesign efforts.
    We also recognize when it comes to student achievement, the 
quality of teaching and instruction is a major predictor of a 
child's academic success. A Missouri task force on K-through-16 
education concluded that improving teaching quality is the 
single most important factor in eliminating the achievement 
gap.
    Last year BellSouth launched a major new initiative. 
BellSouth Quality in the Classroom Teaching Initiative, a $10 
million program designed to assist teachers in professional 
development, retention and workplace conditions, top issues 
facing teachers nationwide.
    As a technology company, we recognize that technology plays 
an integral role in education and can have a significant impact 
on student achievement. The BellSouth Foundation will be 
launching a new strategy in September that we believe will be 
instrumental in improving high schools in the Southeast. Called 
the BellSouth Foundation e-Learning Initiative, this strategy 
is designed to bring engaging, rigorous online instruction to 
students throughout our region, particularly low-income and 
minority students, to help address the growing achievement gap.
    A key component of the strategy will include support for 
State-led virtual high schools. We believe that virtual schools 
and online learning are a growing resource for education 
leaders as they seek innovative and cost-effective ways to 
accommodate growing student populations, meet diverse 
curriculum needs and provide a qualified teacher in every 
classroom. Students benefit by having access to a broader 
curriculum and by engaging in anytime, anywhere learning.
    Our strategy for virtual learning complements the work of 
the National Governors Association, and we commend Governor 
Warner for spearheading the Redesigning American High Schools 
Initiative. We are excited about partnering with NGA and 
offering our support to Governor-led efforts that incorporate 
virtual learning into their high school redesign efforts.
    Another key component of our e-Learning strategy is to 
expand access, allowing students to take advantage of virtual 
learning opportunities. Most low-income students do not have 
access to technology and online educational content in their 
homes. Hence, these students lag behind in student achievement. 
By expanding access to online learning to students in 
underserved communities, we will support schools' efforts to 
improve achievement for low-income students.
    We plan to maximize the impact by leveraging the expertise 
of our employees in support of these initiatives. Currently we 
have over 100,000 active and retired volunteers. Our focus on 
e-Learning provides an outstanding opportunity to engage our 
volunteers and to utilize their skills in the community. This 
is an ambitious endeavor, yet we believe our support of this 
growing virtual learning movement will benefit high schools and 
make it possible for students at all levels to achieve high-
quality courses of instruction personalized to their needs.
    For decades, the focus has been on improving K-through-8 
education, and we have made great strides. It is time to 
broaden our focus and extend those same standards to high 
schools. Together we can make a real difference in public 
education for our students, for our society and our economy. We 
look forward to doing our part in this important national 
effort. Thank you.
    Chairman Castle. Thank you, Mr. Watson.
    [The prepared statement of Mr. Watson follows:]

Statement of Mike Watson, Vice Chairman, BellSouth Foundation, Atlanta, 
                                   GA

    Thank you for the invitation to speak with you today about private 
sector initiatives to improve high school education.
    In its 2000 Pathways to Prosperity report, the Governor's Workforce 
Education Task Force in one of our southern states found:
    <bullet>  65% of the jobs in this century will require a two-year 
degree or certification--yet only 32% of that state's 9th graders will 
pursue a two-year degree or certification
    <bullet>  20% of the jobs will require a college degree--28% of the 
9th graders will pursue a four-year degree
    <bullet>  The final 40% of the state's 9th graders will pursue 
``unskilled'' jobs--because they either drop out of high school or lack 
the skills needed for employment. Only 15% of jobs available will call 
for ``unskilled'' labor.
    The bottom line: workers are not ready for the modern workplace. 
The world of technology requires strong mathematics and science skills, 
plus the abilities to read, write well, to think and reason, and to 
explain complex concepts.
               BellSouth's Support for High School Reform
Education Leadership
    At BellSouth, we believe that systemic and lasting change can 
happen only if our school leaders have the confidence and capacity to 
drive reform across their districts. That is why, the BellSouth 
Superintendent Leadership Network, a group of 50 superintendents from 
across the Southeast, will focus on high school improvement over the 
next two years and provide their analysis, insight and input to state, 
regional and national high school re-design efforts.
Teaching Quality
    We also recognize that when it comes to student achievement, the 
quality of teaching and instruction is a major predictor of a child's 
academic success. A Missouri task force on K-16 education concluded 
that improving teaching quality is the single most important factor in 
eliminating the achievement gap.\1\
---------------------------------------------------------------------------
    \1\ Closing the Achievement Gap Report, http//www.nga.org
---------------------------------------------------------------------------
    Last year, BellSouth launched a major new initiative-BellSouth 
Quality in the Classroom Teaching Initiative, a $10M program designed 
to assist teachers with professional development, retention, and 
workplace conditions, top issues facing teachers nationwide.
    BellSouth's strong commitment to teacher quality and professional 
development is enhanced by other corporate colleagues such as IBM.
    In our home state of Georgia, 75 state school superintendents who 
participated in the Georgia Leadership Institute for School Improvement 
have received training on leadership and change management through use 
of the IBM Reinventing Education Change Toolkit. All of these 
initiatives support the teaching, learning and student achievement 
objectives and outcomes of No Child Left Behind.
e-Learning
    As a technology company, we recognize that technology plays an 
integral role in education and can have a significant impact on student 
achievement. The BellSouth Foundation will be launching a new strategy 
in September that we believe will be instrumental in improving high 
schools in the Southeast. Called the BellSouth Foundation e-Learning 
Initiative, this strategy is designed to bring engaging, rigorous, 
online instruction to students throughout our region-particularly low-
income and minority students--to help address the growing achievement 
gap.
    A recent study released by Harvard University found that 
nationally, only 50 percent of Black, Latino and Native American 
students earn a high school diploma, and that problem is particularly 
acute in the South-where we live and work. We feel a sense of urgency 
to turn these dismal statistics around and we'll strive to do that 
through our e-Learning initiative.
    A key component of this strategy will include support for State-Led 
Virtual High Schools. We believe that virtual schools and online 
learning are a growing resource for education leaders as they seek 
innovative and cost-effective ways to accommodate growing student 
populations, meet diverse curriculum needs, and provide a qualified 
teacher in every classroom. Students benefit by having access to a 
broader curriculum and by engaging in anytime, anywhere learning.
    Our strategy for virtual learning complements the work of the 
National Governors Association, and we commend Governor Warner for 
spearheading the ``Redesigning American High Schools Initiative.'' 
We're excited about partnering with NGA and offering our support to 
Governor-led efforts that incorporate virtual learning into their high 
school redesign efforts.
    Another key component of our e-Learning strategy is to expand 
access allowing students to take advantage of virtual learning 
opportunities. Most low-income students do not have access to 
technology and online educational content in their homes; hence, these 
students lag behind in student achievement. By expanding access to 
online learning to students in underserved communities, we will support 
schools efforts to improve achievement for low income students.
    We plan to maximize the impact of our e-Learning focus by 
leveraging the expertise of our employees in support of these 
initiatives. Currently, we have over 100,000 active and retired 
volunteers. Our focus on e-Learning provides an outstanding opportunity 
to engage our volunteers and utilize their skills in the community.
    This is an ambitious endeavor yet, we believe that our support of 
this growing virtual learning movement will benefit high schools and 
make it possible for students at all levels to receive high quality 
courses of instruction personalized to their needs.
Conclusion
    For decades, the focus has been on improving K-8 education and 
we've made great strides. It's time to broaden our focus and extend 
those same standards to high schools. Together, we can make a real 
difference in public education--for our students, our society and our 
economy. We look forward to doing our part in this important national 
effort.
    Thank you.
                                 ______
                                 
    Chairman Castle. Dr. Hudecki, you are on.

  STATEMENT OF PHYLLIS HUDECKI, EXECUTIVE DIRECTOR, OKLAHOMA 
      BUSINESS AND EDUCATION COALITION, OKLAHOMA CITY, OK

    Dr. Hudecki. Thank you. It is a real pleasure to have an 
opportunity to share with you some very concrete work that is 
going on in Oklahoma.
    Several leading corporations and CEOs about 5 years ago 
decided that they wanted to do something to invest in improving 
public education in Oklahoma, understanding the economic and 
social imperative for having strong public schools, so they got 
together and formed this organization in 2000. We are 5 years 
old. We now have 31 companies, very prominent companies, who 
sponsor the organization. But rather than decide how to tell 
educators how to do their business, they decided to work in 
partnership with educational leaders and with others in the 
State in moving some key education policies and in raising 
expectation about what should happen in our public schools as 
our kids graduate.
    One of the first things we did is deal with infrastructure 
issues. We partnered with the State department of education in 
doing a feasibility study of developing a statewide student 
data system so we would have accurate data about each student 
and where they are. We could keep track of our dropout rates 
better. And you can imagine all of the good information that 
would come out of having a very good data system.
    We have partnered with the State department, the higher 
education system, the Governor and legislators on various 
initiatives. And typically what we do is fund half of the 
initiative and then ask for public-sector match of our private-
sector funding, so it truly is a partnership.
    One of the most exciting things we have done is actually on 
the local level. We have participated in the State's Scholars 
Initiative, and this impacts high school students directly. The 
goal of the program is to get high school students to take more 
rigorous courses in high school so they are better prepared for 
college and work when they graduate. Business leaders are 
trained as volunteers to talk to eighth-graders, recruit them 
and give them incentives, recognition, and upon graduation they 
are better prepared to be successful after high school.
    One quick example comes from Ardmore, Oklahoma, which is a 
small town down the Red River. Ardmore High School, the year 
before they initiated this, the Scholars Program only had seven 
students sign up for high school physics, so the class was 
canceled. The first year of the State Scholars Initiative, they 
had 34 students sign up for high school physics. They have the 
same kind of results with lab science classes and foreign 
language. What is happening is that now they are needing to 
find more teachers to teach upper-level math and science 
classes and foreign language, and we think that is a good 
problem to have. Hopefully we can find a way to help solve 
that.
    The next thing that we did, which is also very exciting, we 
also worked with Governor Brad Henry and the legislature and 
educational leaders this recent past legislative session in 
enacting the ACE legislation, which is Achieving Classroom 
Excellence in Oklahoma. Its is a very aggressive agenda which 
will reform high schools and middle schools and the outcomes 
for students in those systems. It was very much a bipartisan 
initiative, and what we did was develop a provision that every 
student in ninth grade will be enrolled in the college prep 
curriculum unless their parents go to school and sign a consent 
form which will unenroll them. We will have a requirement that 
students must pass 4 out of 6 end-of-instruction tests to 
receive a high school diploma. We will also require mastery of 
eighth grade reading and math standards, or there will be 
interventions put in place for students. And the State will be 
paying for up to 6 hours of high school students currently 
enrolled in college course work. Those are the major 
provisions, but there are others as well.
    You know what? We know that was the easy part. Getting that 
passed will be the easiest piece of that. The most difficult 
will be the implementation. The law also builds in a task 
force, and the business community will participate with the 
education leadership in developing the details for implementing 
this very important piece of legislation.
    We believe, based on our experience in Oklahoma, that one 
of the advantages that business-led coalitions bring to the 
effort is that we have continuity. When policymakers and 
administrations change, the business community is typically 
still present and can bring continuity to the discussions and 
to the concepts. And so that has been our experience in our 
State, and I believe it is the same in others.
    One other important initiative, and we are with 18 States 
in this initiative, is the American Diploma Project, which 
really got a lot of emphasis during the recent national 
education summit with Governors and CEOs and higher education 
and K-12 public school leaders who are all concerned about high 
schools. We have joined this America Diploma Project, and there 
are commitments that must be made in terms of writing 
standards, providing assessments, ensuring that students are 
ready to go to college or to work, and higher education will 
make a commitment to ensuring that once they admit students, 
the students can graduate from college.
    We are very excited about all of these initiatives, and we 
commend what you are doing with the Subcommittee in really 
trying to get your hands around what to do with high schools. 
One of my CEOs said, I know that there are people who think it 
is cruel to raise expectations and to have stakes attached to 
high school graduation. He said, I think it is more cruel to 
turn students loose after high school into a world of higher 
education and business, both of which are unforgiving and 
unrelenting, and they are not prepared.
    We are very excited to be a partner with public education 
in Oklahoma and look forward to sharing any tips or advice we 
might have based on our experiences with you.
    Chairman Castle. Thank you.
    [The prepared statement of Dr. Hudecki follows:]

Statement of Phyllis Hudecki, Executive Director, Oklahoma Business and 
                 Education Coalition, Oklahoma City, OK

    My remarks will focus on the specific involvement by Oklahoma 
business leaders in education reform. The business community in 
Oklahoma recognizes the economic and social imperative for having a 
strong, high quality public education system. During early 2000, 
several CEO's from some of Oklahoma's leading businesses began the 
Oklahoma Business and Education Coalition (OBEC). The organization, now 
five years old and sponsored by 31 companies, is designed so business 
and education leaders work together on an agenda agreed upon by 
representatives from both communities. We started with infrastructure 
issues such as supporting the development of a statewide student data 
system, benchmarking curriculum standards and analyzing alignment of 
state tests with state standards. With each initiative OBEC partners 
with public entities such as the state education agency, the higher 
education system, the legislature, or the governor, and provides 
matching funds to support the cost of the effort.
    While most of the work of OBEC has been focused at the state level, 
we have one program with direct impact on students in local high 
schools. During 2003, Oklahoma was chosen as one of the first six 
implementation states for the State Scholars Initiative. OBEC 
coordinates the initiative which involves getting local business 
leaders to make presentations to eighth graders encouraging them to 
take more rigorous courses in high school. We have had immediate 
results indicating the successful impact of this program. For example, 
during the year prior to starting the State Scholars Initiative, 
Ardmore High School had only seven students signing up for high school 
physics, so the class was cancelled. During the first year of the 
Scholars pilot the enrollment jumped to 34 in the physics class. 
Similar results have been reported for foreign language and lab science 
classes. We plan to expand this program statewide and have been 
exploring partnerships with the Native American Tribes to help us reach 
students in rural areas of the state.
    OBEC also advocates for higher standards and expectations for high 
school graduates. Today, Oklahoma students can earn a diploma by 
meeting minimal standards, far below what it takes to be ready for 
college or new economy jobs. During the most recent legislative 
session, OBEC partnered with Governor Henry and other education leaders 
to support passage of a landmark education reform bill, ACE (Achieving 
Classroom Excellence). Major provisions of the legislation include:
    <bullet>  College prep curriculum as the default curriculum, 
starting in 2006-07
    <bullet>  Beginning in 2008-09, high school students must pass four 
out of six end-of-instruction tests to receive a high school diploma
    <bullet>  Eighth grade mastery of reading and math standards
    <bullet>  State paying for high school students concurrently 
enrolled in college coursework
    While passage of the legislation was monumental, the real 
challenges are still in front of us. Implementation issues will be 
worked out through a task force consisting of both education and 
business leaders. OBEC will remain vigilant in making sure the 
standards remain high and funding is provided to ensure support for 
student success.
    Based on our experience in Oklahoma, business-led coalitions can be 
pivotal in education reform. We have a huge stake in the success of our 
schools and their graduates. We provide continuity to state education 
policy which is often subjected to shift in direction as policymakers 
change after each election.
    Oklahoma is not unique, however. Other states have vital leadership 
provided by business leaders who want to improve education. Several 
months ago, Oklahoma Governor Brad Henry and I attended as well as 
others, the National Summit on High Schools, co-sponsored by Achieve 
and the National Governors Association. Business leaders played a key 
role in organizing the summit, the fourth such event over the past 
decade and the first to focus exclusively on the urgent need to 
redesign our high schools.
    Forty five governors attended the Summit, along with K-12 and 
postsecondary leaders and corporate CEOs from some of the most powerful 
companies in the nation. They confronted sobering data on the 
performance of our schools and the impact that is having on our global 
competitiveness. For example:
    <bullet>  One third of high school students drop out without 
earning a diploma, and the numbers are much worse in urban schools 
where nearly half of 9th graders won't complete high school.
    <bullet>  A sizeable number of those who do graduate are unprepared 
for the demands of college and the workforce. According to one study, 
only a third of high school graduates are college ready.
    <bullet>  Nearly a third of high school graduates who go to college 
have to rake remedial courses in reading or math, and most students who 
take such courses drop out without earning a college degree.
    <bullet>  In a nationwide poll conducted by Achieve earlier this 
year, employers estimated that 45% of high school graduates are lacking 
the skills necessary to work in their companies.
    <bullet>  In terms of our international competitiveness, the U.S. 
ranks 16th out of 20 OECD nations in our high school graduation rate 
and 14th out of 20 in our college graduation rates.
    The business community finds this data deeply disturbing and in 
states across the country we are joining with reform minded governors 
and educators to close the achievement gap. But in order to do this we 
must first close a different kind of gap--a gap in the expectations 
we've set for our students and schools.
    According to Achieve, only a handful of states require their 
students to take a rigorous set of math and English courses in order to 
earn a high school diploma. In most states, students can graduate 
without college and work ready skills. Even states that have put high 
school graduation exams in place typically only require students to 
demonstrate eighth or ninth grade competency.
    That's why one of the main action steps that emerged from the 
National Education Summit was the establishment of the American Diploma 
Project Network, a group of 18 states, including Oklahoma, that have 
committed to close the expectations gap and restore value to the high 
school diploma. Governors, K-12 commissioners of education, business 
leaders, and higher education officials in these states have pledged to 
take four decisive actions:
    First, they will raise high school standards to the level of what 
is actually required to succeed in college or in the workforce. This 
will require our postsecondary institutions in each state to work 
together to be more transparent about the knowledge and skills entering 
freshman must have in order to enroll and succeed in credit-bearing 
rather than remedial courses. And it will require employers and 
colleges together to verify that the state's standards for high school 
students measure up.
    Second, the states will require all students to take a rigorous 
college and work-ready curriculum. Research conducted by Achieve and 
others show that students need the math skills taught in a good Algebra 
II course to be well prepared for both college and work. Yet only 3 
states require students to take Algebra II in order to earn a high 
school diploma.
    Third, the American Diploma Project states will develop tests of 
college and work readiness that all students will take in high school. 
Testing is important at the high school level, but we must make sure we 
give tests that provide useful information to students, families and 
schools. One of the most important tests college- bound students take 
is a placement exam--the one that tells them if they can enroll in real 
college-level courses, or must take remedial classes. Students 
typically don't take those exams until they arrive at college at the 
beginning of their freshman year. Each year about one third of first 
year college students are surprised to learn they must take, and pay 
tuition for, courses that won't even earn them credit. Imagine if 
students got to take those tests while they were 11th graders, and 
could make up any skill deficiencies while still in high school, before 
they enroll in college. They'd be better prepared, and save taxpayers 
and families money at the same time.
    Fourth, these leadership states will hold high schools accountable 
for graduating all students ready for college and work, and hold 
colleges accountable for the success of the students they admit.
    The hearings this subcommittee is holding about high school reform 
are very important. I commend you for taking the time to educate 
yourselves and the American public about the steps we must take. I 
understand that you may not take up legislation on this issue until 
later in this session, perhaps as part of the NCLB reauthorization 
where you can deal with high school issues in a comprehensive fashion.
    Yet there is a simple but very important step you can take sooner, 
and I urge you to consider it. Consider, as part of the Higher 
Education Act reauthorization, providing incentives for all 50 states 
to follow the lead of the 18 states in the American Diploma Project. 
Modest amounts of money can provide the impetus for the governors and 
business leaders to bring postsecondary and K-12 education leaders 
together to align high school standards, assessments and curriculum 
with the demands of college and work.
    It is vital that states are encouraged to aim high with their 
standards and testing programs. There will be many pressures on them to 
lower standards, but by lowering our expectations we will do a real 
disservice to our students. The standards in the real world are 
unforgiving. By helping all states set the right expectations for what 
high school students should learn, Congress will ensure that broader 
reforms enacted later will pay off.
    Business leaders nationwide are steadfast in their desire to raise 
expectations for high school graduates so that they can compete with 
their peers around the globe. We know that the nature of work is 
changing. We know that the competition is more intense. We know that 
other countries, including China and India, are demanding more of their 
high school students. And we know that our graduation rates in high 
school and college are flat lined. If we don't raise our expectations, 
young people won't survive in this market or earn a living wage.
    We do young people no favors by handing them a high school diploma 
when they do not have the skills they need to succeed. We owe it to 
them to aim higher.
    Thank you for inviting me to share some of our experiences in 
Oklahoma.
                                 ______
                                 
    Chairman Castle. We appreciate the testimony of all of you, 
and I will lead off the discussion here. Let me just say one 
thing. It is not a question, but I mentioned it, and a couple 
of you referenced it as well. If I was the czar and I was in 
charge, and believe me, nobody is a czar in this place, and I 
was writing legislation for high schools, I would start with a 
universal definition of graduation rates and the reverse of 
that, the dropout rates, if you will. The confusion about that, 
because the States use different standards, is unbelievable. 
And it is quite difficult if you ever tried to get into it and 
grasp it, and it is highly deceptive and very unfair. You deal 
with it when you get to high school. I think that is a 
tremendous problem.
    I am going to ask you, Ms. Sterling, an impossible 
question, and asking for a brief answer, and if you can't 
answer, we will go from there. Every item I read about women in 
education indicates they are graduating from high school at a 
high rate, certainly going to college at a higher rate now than 
men, academically exceeding men in many, if not common, 
instances across the country. Why is there a lack of interest 
in computer sciences or maybe broader technology among women? 
Is there something we can do about that, or just something 
innately that they are going to have to do about it? To me 
there is great economic opportunity there, and academically 
women do every bit as well, if not better, than men. Why do we 
have to focus on that?
    Ms. Sterling. Thank you, Chairman Castle. That is my 
favorite question.
    Women are entering college at 58 percent higher than men. 
And women are quite prevalent in many of the academic 
communities and are outpacing men in biology and law, and they 
are seeing it in pharmacy schools.
    Women don't know what computing is, especially if you have 
to declare a major your first year coming in. What women see in 
their high school experiences is that the people that gravitate 
toward high school computer science courses are interested in 
writing games and hacking computers. They see that geek 
element, and it is a bit repulsive, especially to women who 
have such broad interests and to well-rounded men who have 
broad interests. They see the lifestyle in this negative 
stereotype, of if you become a computer science major, you are 
going to live in a lab and sit in front of a terminal for your 
4 years of college.
    Dispelling those myths earlier is something that the media, 
public sector, private sector and teachers need to do, because 
once women understand that computer science is actually this 
underlying set of tools where they can make a huge societal 
impact and change, they understand that, yes, they can design 
intelligent user interfaces and work in artificial intelligence 
and machine translation and really fulfill their professional 
and personal goals. There is a huge image change campaign that 
we need to work on at the earlier levels.
    Chairman Castle. Let me ask perhaps the others, since you 
had a chance to answer that, I always worry about--and I cite 
some of these--I have visited a lot of the businesses in 
Delaware and outside of Delaware, and I have seen a lot of the 
business efforts in terms of education, and I worry about the 
communication or lack of communication amongst each other with 
the education people who are there. Is it truly a coordinated 
effort. I worry about what we are doing. Huge amount of money 
and effort being put into it. I worry that your corporations 
have a committee that makes the decision to do something, but 
it is not the best thing you could be doing.
    Are you talking to each other? Do you have a network so you 
are actually talking to each other and talking to the 
educators? Do you have an assessment of what you are doing to 
determine if it really makes sense that these kids are 
improving, or is it a gut reaction or anecdotal reaction to 
what you hear?
    Mr. Watson. I will take a shot at that. We consider all of 
the things that we do around education not successful if they 
aren't partnerships. We work very closely with superintendents, 
with principals, with teachers and also with students to get 
feedback to help determine what direction we need to take in 
terms of our programs. We also work very closely with other 
corporations, including Microsoft and a number of companies 
that we have partnered with, around initiatives. So the answer 
to that is yes.
    Mr. Shore. I would like to agree with what he said because 
I think you touched on something.
    Chairman Castle. I am a little bit of a ``doubting 
Thomas,'' in case if you didn't understand the edge of my 
question.
    Mr. Shore. We don't want to waste our time and effort, and 
we are not teachers, and we are not principals and not 
superintendents, and we are not teaching in the classroom, but 
we receive the product of what is coming through our system 
applying for jobs. It is very important for us to be able to 
have good communications with the educators, because we, over 
the years, found out that we can create this incredibly 
wonderful--what we think are wonderful programs to fund and 
support, and we think we are doing incredible things, go to the 
school and say, we would like to help, but here is something 
that doesn't tie in at all with their strategic planning.
    A few years ago, we started doing strategic planning, and I 
am talking about how businesses are involved, like the Durham 
Public Education Network, the partnerships like she was talking 
about. And we do strategic planning now at the same time as the 
schools, so we understand what their strategies are, what their 
goals are, and how they are going to be rewarded or penalized 
for not meeting their goals, and we tend to follow along with 
that. But it is a very difficult line to walk because you want 
to make the biggest impact for your dollars, and if you are not 
in lockstep, in some cases you are not going to be able to do 
that.
    That is one thing we are dealing with the U.S. Chamber, 
with the Business Education Network is to be able to start 
capturing a lot of what is going on around in various States, 
because--and I am not sure we need to create any new programs. 
There is a lot out there that works now.
    Dr. Hudecki. I would like to respond to that. The work we 
are doing in Oklahoma is coordinated for our agenda with the 
education leadership. But on a national level, it occurs to me 
that there is quite a large network facilitated by ACHIEVE, an 
organization made up of Governors and CEOs, and that agenda is 
very much focused on high school reform right now, and there 
are 18 States that are partnered in that. And so the 
businesses, Governors and education leaders from the States 
that are participating in the America Diploma Project network 
are very much focused on communicating about standards, 
expectations, and literally sitting down and hammering out in 
each State the standards expected for students to be successful 
when they graduate from high school, the way we are going to 
measure and assess that knowledge, and the way that higher 
education and the workplace will be dealing with that.
    In Oklahoma, for example, our CEOs will look at those 
standards and verify and publicize that they have agreed to 
those. Higher education will be at the table as well as the 
State superintendent and public education representatives.
    So there are a couple of examples of concerted efforts. I 
am sure there are some that aren't, but at least the big ones 
are working together.
    Ms. Sterling. I share your cynicism, because at Microsoft, 
we knew we didn't know it all, and we were never going to be 
able to capture all the practices that were out there. The 
biggest missing piece we have had is the assessment piece and 
knowing if what we are doing has impact, which has actually 
formed the National Center for Women and IT because we need the 
metric and assessment piece.
    Chairman Castle. Of course, there are other elements that 
go into assessments besides what you are doing, which makes it 
complex, which I understand. I am not going to ask this 
question now, but later, and that is this: When I visit with my 
schools and look at the finances of the schools, I learn there 
is a tremendous amount of disparity there on how schools do. I 
am talking about schools, not school districts or what the 
Federal Government is doing, or what the State government is 
doing, or what their local taxation is, but just how they 
manage the money and what they do. And it seems to me--and 
frankly, I have seen schools right next to each other where one 
is coming along very well, and the other one isn't doing well 
at all. And I found out that they managed their money very well 
in terms of where they placed it with respect to teachers or 
whatever. And it seems to me that if there is anything the 
corporations probably have an advantage over education, it may 
be in the area of managing money and finances, et cetera.
    I wonder if you venture into that. Mentoring and a lot of 
the other things you do are fine. Do you enter the finances? I 
don't mean asking for more money by coming to Congress. Ms. 
Woolsey asks me for that all the time. But in the general sense 
of trying to help these schools.
    Hold that, and I will try to get back to it in another 
round. I am going to yield to Ms. Woolsey.
    Ms. Woolsey. And he usually says no.
    You know, I think we can give Bill Gates a lot of credit 
for the discussion we are having today because it was his 
announcement a few months ago that he was going to India to 
hire his top 20 new engineers, at least in the last couple of 
years, and the awakening that we had to get better and sharper 
at all of this. So we can thank him for that. And thank him for 
you, Ms. Sterling, for putting effort into girls in technology.
    Ms. Woolsey. I have legislation called Go Girl. And the 
legislation emphasizes girls starting in the fourth grade and 
getting them and their families prepared and interested in at 
least considering science, math and technology as they go on in 
school, because fourth-graders, they start losing interest. And 
part of that, I believe, is because, as you said, girls have so 
many interests, and sitting in front of a computer playing very 
violent computer games is not something that very many girls 
are going to find interesting. So we have to find different 
ways.
    What I am going to ask you is at what age do you think it 
is smartest to start getting young girls--I think they should 
be young girls or young women--interested in science, math and 
technology and computing? How do we get their parents 
interested? How are teachers responding to extra emphasis on 
girls? And how is Microsoft, with your monies for technology, 
how much of that is focused on women?
    Ms. Sterling. Thank you, Congresswoman Woolsey.
    I don't think you can start early enough with priming 
women's interest in technology, because you can give a cell 
phone to any 5- or 6-year-old now, and they probably know how 
to turn it on and know they are supposed to talk into it. 
Children are so much more adaptable than my generation was at 
technology. I went to college without the Internet, and I 
couldn't imagine going back to grad school without it.
    The earlier we can start, the better. I have been working 
with the Girl Scouts to see how early can we start looking at 
things like the very interesting technology badge. If you have 
a tech badge, you have to have teachers and parents who can 
teach the tech badge, and that is sometimes a harder issue. 
That is really rolling the rock uphill, changing the adult's 
perception as well.
    I don't think you can start early enough in this space. 
Certainly a lot of early childhood development and cognitive 
studies show that students do need--they excel in these areas 
that are continuous, relevant and adaptive. This is what we are 
basing the School of the Future on. Just for one example of 
that, students nowadays in middle school have four to seven e-
mail addresses. When they turn on a computer, they have six 
different applications going. They know how to manage multiple 
windows. We need to make sure that the content and the 
opportunities are there to capture that shorter adoption and 
adaption span that students have.
    In terms of Microsoft specifically, I didn't quite 
understand your question about our investment.
    Ms. Woolsey. You said something like $35 million invested 
in technology. I mean, that is not all focused on girls. Is 
there a special cut for focusing on females?
    Ms. Sterling. Out of that $35 million, the basis for that 
is to lift all boats, obviously. We know what works for women 
in making computing more attractive also works for men. If we 
can broaden the pipeline, this is wonderful across the board. 
There are certain funds within that. I, for one, have a 
several-million-dollar budget that is devoted specifically to 
females and looking at retention and attraction programs with 
women.
    Ms. Woolsey. What funding mix do you get, private, State 
and any Federal, in your programs? Mr. Shore.
    Mr. Shore. Primarily for us it is joining with other 
companies, to get to the Chairman's point a few minutes ago, to 
address issues in fairly large projects that are much bigger 
than just one company can help to fund. Sometimes it is a 
combination of things.
    Ms. Woolsey. Mostly private?
    Mr. Shore. Mostly private. And it runs the gambit, so to 
speak, depending on what we are talking about doing in our 
local school systems. It is hard for a major company to pick 
individual schools because there are so many of them. We tend 
to work with the community education foundations and the 
statewide network, and we help work with the department of 
public instruction and come up with the programs. A lot of 
times it is a mixture of different funding sources.
    Ms. Sterling. Congresswoman, we have a mix of funding 
options. The High School of the Future is something we are 
adding personal capital, mental capital, human capital. We have 
open head count dedicated to this and to helping the 
Philadelphia School District basically understand strategic 
business practices, but they themselves are actually funding 
the changes. So we are looking for that kind of coalition 
between public and private partnerships.
    We also work with organizations like NCWIT, where all the 
high-tech companies will fund a membership coalition like the 
Workforce Alliance, and we will decide to do one or two major 
research projects to stretch our dollars the furthest.
    Mr. Watson. Most of ours are private partnerships. We are 
going to be a partner with NGA in their high school initiative, 
though. Other than relationship partnerships, from a funding 
standpoint, that is something new for us to fund.
    Dr. Hudecki. And our organization is funded totally from 
private funds. But when we start any type of adventure with an 
initiative or a project, if something we are working on with 
the State, the State department of education, we typically have 
matching funds from the public sector. We also have a small 
amount of Federal money given to us to start the Oklahoma 
Scholars, the State Scholars Initiative. And the agreement was 
we would have seed money for 2 years, and then the State or our 
organization would continue that with private-sector funding.
    You might be interested to know, in Oklahoma we have a very 
large population of Native Americans, and the tribes have 
indicated an interest in helping us spread the State Scholars 
Initiative to the rural parts of the State. We are excited to 
work with the tribes in a formal fashion.
    Ms. Woolsey. Thank you, Mr. Chairman, for letting me go 
over.
    Chairman Osborne. [presiding.] Thank you, Ms. Woolsey.
    And, Mr. Shore, I would like to start with you and ask you 
a couple of questions. Obviously your company has devoted a lot 
of time and resources in education. And have you done any 
evaluation of the impact of these efforts? Do you have any 
outcomes that you have been able to observe?
    Mr. Shore. That is the one thing we ask ourselves all the 
time, are we being effective with our funding. And it is a 
little difficult to know exactly how you are doing because we 
are not in the classrooms teaching the kids. We are depending 
on helping to make teachers and the classrooms more effective 
and have better outcomes.
    There are a number of initiatives. We have funded the Hill 
Center, which is a school for learning disabilities. What we 
have done is--and we do it with the public school teachers 
statewide. The Hill Center staff teaches public schoolteachers 
on how to deal with kids with learning disabilities. So we see 
the improvement in those teachers in those classrooms with the 
ability to handle kids who learn a little differently. We hear 
test scores going up and see the kids doing better in class. 
And it boils down for me are our students doing better? Is 
their achievement better? If it is, then we are funding the 
right things in the right way. But we haven't figured out how 
we are going to say we have been successful in that. It is a 
tough issue for us.
    Chairman Osborne. Thank you, Mr. Shore, and I am not going 
to ask you any questions, Ms. Sterling, because Ms. Woolsey 
grilled you enough. But I would comment that Tom Vander Ark 
from the Gates Foundation was here last week, and Tom was 
talking about a boy problem, and which I think the Chairman has 
already alluded to. We appreciate your efforts and what you are 
trying to do for women.
    Mr. Watson, I would like to ask you a question regarding 
your e-Learning Initiative, and particularly what this has done 
for low-income and minority students. Have you directed any of 
that in those areas?
    Mr. Watson. Mr. Chairman, I think it is really too early 
for us to be able to answer that question. We have got about 
30,000 students in our Southern States who are currently 
enrolled in virtual high school courses. The vast majority of 
those are in the State of Florida; in fact, about 20,000 of the 
30,000 are in the State of Florida.
    Mr. Watson. We do know this, we do know that some of the 
poor, low-income school districts, for example, in--let's just 
take, for example, in the area in south Florida around Lake 
Okeechobee, where advanced placement courses, where college 
calculus, for example, may or not be offered, those students, 
with the use of virtual learning, now have the ability to take 
courses like that from a teacher at Leon High School in 
Tallahassee.
    So we know it is going to change the outcome. I think it is 
a little early to be able to say that it has been dramatic 
differences, but it is coming.
    Mr. Osborne. Well, thank you. I serve a very rural area, 
and we find that some of our students in very small towns are 
not able to take advance courses, and so we feel E-learning is 
very important.
    Dr. Hudecki, I am always interested in what is going on in 
Oklahoma, being from Nebraska. And I know that you commented on 
some legislation I believe that had been passed where you were 
indicating that all ninth graders would take a college prep 
program unless their parents requested otherwise. And I wonder 
if you would comment on that a little bit more because it seems 
kind of ambitious to me. And obviously, when you look at the 
numbers, not all ninth graders are going to go through a 
college program. And I realize that ninth grade is kind of 
early to make that decision as to who will and who won't, but 
what did you decide or why did you back that type of 
initiative?
    Dr. Hudecki. For several years we have had an initiative in 
place from our higher education system called the Oklahoma 
Higher Learning Access Program, OHLAP, which was intended to 
fund economically needy students to be able to go to college, 
and it required them to participate in a core of courses that 
would be considered a college prep course. The track record for 
those students is very, very, very good. And they are kids, 
again, from economically disadvantaged families. Once they get 
into college the data shows that they have better success.
    So we thought that since we don't really know which kids 
are going to go to work or to college, and inevitably, in 
Oklahoma about 80 percent of our kids at some point within 6 
years after graduation do go to college, either a 2-year or 4-
year college, so we thought it would be better to cast a 
broader net and really have every student prepared the best 
that we could prepare them when they leave high school, since 
we don't know which way they are going to go. So it will help 
them if they are going to the workplace, it will also help them 
if they are going to college.
    The important part of that whole initiative, as we all 
know, will be giving them the remediation and the intervention 
they need in high school. We think it does not make sense for 
students to enter a 2-year college, a technical college, or 4-
year university and find out at that point they are not 
prepared; we think it is better to find out in 10th or 11th 
grade that they still have gaps in terms of their knowledge and 
skills, and fix it at that point rather than waiting until they 
are turned loose.
    Mr. Osborne. Thank you. I think there is somebody else that 
wants his Chair, and I will give it back to him.
    Chairman Castle. [Presiding.] Mr. Kind is recognized.
    Mr. Kind. Thank you, Mr. Chairman. I want to thank our 
guests today for your testimony on this very important topic, 
one that is, fortunately, receiving a little bit more attention 
throughout the country.
    You know, it is no surprise that those of us serving on the 
Education Committee feel very deeply about the quality of 
education, the education reform that we need to take. Sometimes 
it is hard though to engage the rest of our colleagues in 
Congress with the number of issues that are coming through our 
offices and across our desk each and every day, and that is why 
it is so vitally important for businesses, large and small, 
throughout America to weigh in and let your voices be heard.
    Ms. Sterling, Bill Gates has been very, very helpful 
recently in regards to the statements he has made, especially 
targeting the need for high school education reform in this 
country. I had a chance to have lunch with him about a month 
ago when he was coming through Washington and we talked a 
little more about that, and I asked him to be even more blunt 
in order to get this country to wake up in regards to the 
reforms that we need to take by basically stating that either 
you do this or companies like Microsoft won't be able to hire 
our children when it comes time for graduation. This is going 
to be true for other companies throughout the country.
    But it would also be helpful for the CEOs of this country, 
those involved in education reform, to expend a little bit of 
political capital when it comes to budget time around this 
place. I mean, we recently passed a budget last week that calls 
for over $800 million in cuts for No Child Left Behind and, as 
Ms. Woolsey pointed out, a 40 percent cut in education 
technology funding. And it is nice to be talking about this, 
but when the real leverage occurs it would also be helpful if 
there was a little bit of political capital spent in regards to 
support for a lot of the education program in the funding. 
Because part of the problem has been a funding issue, 
especially since Washington now is trying to pass on mandates 
to the local level but without providing the resources to get 
it done. And that, I think, is going to be very important.
    But when you talk about education reform, and this is true 
even at the high school level, I don't see how we can move 
forward without some serious thinking about home reform as 
well, because so many of the habits the students bring to the 
classroom start in the home. And I had the opportunity over the 
Easter recess, along with Mr. Hinojosa here and Ms. McCarthy on 
the Committee and Buck McKeon, to go to China for a couple of 
weeks on a higher education tour. And what was really striking 
in regards to our visit over there is how hungry they are for 
education, how committed they are. And you walk away from a 
trip like that almost feeling a little bit sorry for those 
Chinese students. Many of them are single children in a family, 
bearing the full weight and pressure from their parents who are 
hovering over them each and every day to perform well in the 
classroom. And it is not just their parents, but it is both 
sets of grandparents that are hovering over them, making sure 
that they are doing everything they can to excel in the 
classroom, given the level of competition over there, but also 
the realization of how important education is. And I am not 
quite sure whether or not we can figure that out to encourage 
the right type of habits starting at the home--turning off the 
TV, getting the kids away from the Game Boys, and maybe some of 
these high-tech toys that they have become very fond of 
recently--but we also have to try to figure out that a little 
bit.
    And I agree with you, Mr. Chairman, that a good place to 
start is having a universal definition on graduation rates that 
deal with the dropout, but it is a first stop. We have got to 
figure out a way to encourage kids to stay in the classroom, to 
perform well and to graduate.
    And one of the more interesting ideas I recently heard is 
for every child born in this country, set up an education fund 
for them right away and fund it for the next 5 years, and 
provide some matching funds or private funds to go into that 
account as well. And it would be in their name and it could 
grow for the next 12 to 13 years, and it would be there for 
them under the condition that they graduate from school and 
that they are performing well in school. And maybe we could 
target it to the higher needs area, make it needs-based or 
something like that, but we have got to try to incentivize 
graduating in this country again and performing while even in 
the high school years.
    Let me just leave this question to you because the 
administration has also been thinking about high school reform. 
What they would like to do is just extend the principles of No 
Child Left Behind to the high school level, which to many of us 
gives us pause or hesitation because it sounds like a lot more 
Federal mandates going back to the local level to try to 
incentivize the reform that has to take place. Obviously the 
concern with huge budget deficits is that the resources won't 
follow the mandates, and we are going to get into the same type 
of problem we currently have with No Child Left Behind.
    But based on your experience, do you think it is going to 
be necessary for the Federal Government to place requirements 
to or establish mandates or to provide the guidance in order to 
spur the type of education reform at the high school level? Or 
are these school districts in the high schools capable, with 
your assistance, with the help of local officials, State 
government to do this on their own?
    And I will just leave that open to anyone who wants to 
touch that.
    Mr. Shore. Well, I will touch it----
    Mr. Kind. Gingerly, I am sure.
    Mr. Shore. Gingerly. There are--it has been mentioned two 
or three times today about having consistency among States, if 
you will, in terms of standards so you know what high school 
diploma means from State to State. As a company like ours, we 
are hiring people not just from North Carolina, not just in 
Philadelphia. We are interested in what the standards are and 
what the educations is like in every State because we are 
recruiting, as we all are, from every State. So we want it to 
mean the same thing.
    But I think the whole, whatever you call it, No Child Left 
Behind, I think the whole standards and accountability effort 
is becoming so ingrained now, and I think the expectation level 
for high schools is getting greater, and I just see it in our 
own community, that I think with the pressure from the business 
community and with support from the business community and a 
lot of others, I think we are seeing changes being made without 
having legislation in place yet. I think it would help bring 
consistency if there were something there, but I am not sure 
not having it is going to keep good things from happening.
    Dr. Hudecki. I would like to offer that in Oklahoma, at 
least in terms of the State policy I just described a while 
ago, I think we are ahead of the Federal Government, but not 
every State is there. And in no way am I going to speak for our 
education leadership in the State on this particular issue, but 
I would say that the work that we are doing with the 18 States 
that are in the American Diploma Project led by Achieve may be 
on to something that is voluntary. It may take a modest amount 
of funding from each State to push that, but it wouldn't be a 
real big leap if the Federal Government entered into some type 
of arrangement by providing a modest amount of money to each 
State to participate in that program. You could do it under the 
Higher Education Act or whatever you want to, but that would be 
not terribly expensive. And it would give States kind of a 
template from which to work with Governors, business leaders, 
and higher education and public school leaders to come together 
and really ratchet up the standards and assessment. So that 
might be some food for thought for you.
    Ms. Sterling. Mr. Congressman, we also believe that 
everybody is needed in this equation. We supported the 
bipartisan efforts behind getting No Child Left Behind passed. 
We are supportive of the Higher Education Act. And while school 
districts and corporations are certainly not going to wait to 
try to do something innovative in the space and find out new 
things that work, this is all of our responsibility.
    Mr. Kind. Thank you, thank you very much again. Thank you, 
Mr. Chairman.
    Chairman Castle. Thank you, Mr. Kind.
    Mr. Hinojosa is recognized.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    I also want to commend you for coming to talk to us today 
on the issue of math, science and engineering, which are very, 
very important to us in Texas.
    I want to direct my comments and questions to Sarah 
Sterling of Microsoft.
    It is no secret that we are losing or competitive edge in 
producing experts in math, science and engineering, and we must 
redouble our efforts to engage young people in those fields. If 
we do not engage and provide quality educational opportunities 
for the fastest growing population, Hispanic Americans, we will 
be permanently ceding leadership in this area.
    In my congressional office we have dedicated a lot of time 
to work with the University of Texas. Pan-American, in its 
GEAR-UP program, founding an initiative called the Hispanic 
Engineering Science and Technology Initiative, referred to as 
HESTEC. Every year we celebrate HESTEC week on campus there, 
and we bring together our leading corporations like yours, 
Microsoft, Dell, Lockheed Martin, Ford, State Farm, and many, 
many others. We bring our key Federal agencies like NASA, 
Department of Energy, National Science Foundation, and we 
dedicate an entire day to Latinas--daughters and mothers. You 
talked about there being 58 percent women starting college, 
well, we are trying to show them that there is a career path 
they could consider.
    Additionally, we need a special focus on access to quality 
laboratory science in our high schools. During this last 
reauthorization of the National Science Foundation, I worked 
with Senator Kerry and Senator Kennedy to include a provision 
to improve our high school laboratories in the most needy 
school districts. As part of that effort, NSF has commissioned 
the National Academy of Science to study what a well-furbished 
high school laboratory of this 21st century should look like.
    So I ask you, what do you see as promising practices in 
engaging young people in math and science? And what do you 
think is essential in one of these new modern high school 
laboratories?
    Ms. Sterling. Thank you, Congressman Hinojosa.
    I think you hit the nail on the head when you talked about 
the 21st century education and academic leadership. I also 
applaud the efforts at what the UT system has done. I am not 
very familiar with Pan-American, but I work a lot with 
University of Texas of El Paso, and it is always the women in 
the electrical and computer engineering department, University 
of Texas, El Paso, that always are first or second place in a 
service-learning competition that I work on with them. It is 
amazing how tied in they are with community needs and supplying 
engineering and computing solutions to NGO's, nonprofits, and 
other community centers in the area.
    They are on to something that would work at the high school 
level, which is to--and something that Microsoft is hugely in 
favor of, and we are trying to work on this with our Partners 
in Learning Initiative, is bringing the tenets of engineering 
down to the high school level. When students get to college 
they are so excited with the college courses that are actually 
there. They get to pick these amazing courses that just the 
name of them excites them. There is a way to bring these 
advanced topics in engineering into high schools because what 
they need to see is that technology and the sciences and the 
maths and the engineering courses, tenets that are going to 
serve them later on, are things that are applicable to what 
they already know with a small basis in math and life sciences 
and physics. And what it also teaches is teamwork and the 
collaboration skills, the software skills they are going to 
need to succeed later on in life. And they work on projects. If 
we bring in engineering earlier into the curriculum, they work 
on projects where they see the end result, the tangible end 
results of these projects while they are already students. And 
they go, wow, I really can have an impact, I am smart, I can 
produce this with the help of my teammates and classmates.
    So we are very excited to bring in engineering principles 
early on and engage all students.
    Mr. Hinojosa. Thank you for describing what would work.
    I would like to ask the last question to Dr. Hudecki of 
Oklahoma.
    Susan Davis from California and I reintroduced the 
Graduation for All Act, and it now has more than 80 co-
sponsors. This legislation provides States with the resources 
to target school districts with the lowest graduation rates. 
Funds are used to establish literacy programs at the secondary 
school level and provide onsite professional development for 
high school faculty through literacy coaches.
    The legislation strengthens the accountability for 
graduation rates. We can't call high school reform successful 
if only half of our students benefit from increased rigor and 
raised expectations. Do you believe that this type of Federal 
legislation would complement your efforts to reform high 
schools?
    Dr. Hudecki. Well, on the surface it sounds like it would 
very much complement it. We discovered, through our work with 
business leaders that their expectations for what students 
ought to know and be able to do now when they graduate from 
high school are almost identical to the requirements to go into 
college. So it makes no sense whatsoever to have sorting 
mechanisms in place or different kinds of expectations for 
different types of students in terms of what they are going to 
do when they leave the school system.
    So we are very much advocating that we educate all students 
to a higher level and want to define what that level is. So I 
think that would be a very good fit.
    Mr. Hinojosa. I am pleased to hear you say that you agree 
with that, but we need both your organization, the foundation, 
corporate America to support us with this legislation because 
it requires big funding to be able to get it done. Our 
authorization level request is for $1 billion, and I think that 
it is going to take that type of investment to be able to move 
us forward and be able to compete.
    With that, Mr. Chairman, I yield back.
    Chairman Castle. Thank you, Mr. Hinojosa.
    We have gone through a round of questions, and I don't want 
to prolong this too long, but I did have a couple of follow-up 
things I wanted to ask. And if the others want to, they are 
certainly welcome to as well.
    I want to go back to what I stated before. We have 
arguments here, you sort of heard a little bit of it, do we 
underfund schools, are we not doing enough at the Federal 
level? I could argue that--I am not going to pick arguments 
here today--I believe that we do. But schools are basically 
funded at the Federal level, the State level, and obviously 
local property taxes for the most part. But I have noticed, 
particularly at the State level and at the district level and 
even at the school level, there is huge disparities in the way 
people actually manage those dollars.
    And I attended a very interesting session on this at an 
Aspen Institute meeting, where I learned more about education 
than I do almost anything else I do, in which we really parsed 
this and looked carefully at it. And they compared a couple of 
schools with about the same budget dollars coming in, but 
decisions being made very differently by the principals in the 
schools in terms of how the money is going to be spent. Do you 
have a band, do you not have a band; what do you do for labs; 
how many, you know, cafeteria workers do you have versus 
something else, or whatever. And it was proportionate to the 
academic achievement in the schools; those who put more into 
the educational aspect seemed to do a better kind of thing. And 
I have seen this again and again, that understanding those 
numbers and those finances is as important as what the finances 
really are.
    And that is what I asked when I stopped and didn't ask you 
to answer before, is to whether or not you know of any 
corporations or corporate entities that are actually helping 
with that aspect of it; that is, really analyzing and 
understanding the finances within a school, which I think 
corporations are particularly suited to do. And I am not asking 
for just a general answer, but do any of you know anything 
specific that is going on in that area within the framework of 
what you are doing or what anyone else is doing?
    Mr. Watson. We have--for the Atlanta Public Schools we 
have--well, we don't, Dr. Beverly Hall, who is the 
superintendent for Atlanta, has what she calls a CEO 
roundtable. And a number of CEOs from major corporations, and 
even some mid and small businesses, sit on this CEO roundtable 
and advise her on issues that are facing those businesses from 
a hiring standpoint. It gives her a chance to ask them 
questions about managing a business, which she is also the CEO 
of a large business.
    So in that regard, IT professionals that work in the 
business have a chance to work with her IT people, finance 
professionals in the businesses have a chance to work with her 
finance people. So it is an opportunity for her, not as 
superintendent of the school but as the CEO of a large 
business, to interface with other businesses and have a chance 
for those professionals to work with her staff in that area, 
yes.
    Ms. Sterling. Mr. Chairman, we also--a large component of 
our Partners in Learning program is to teach strategic business 
and financial processes to the academic arena, the 
practitioners, the teachers and the administrators. These are 
the exact same curricula that we teach Microsoft employees, 
developers and engineers that come in on how to be business 
savvy and how to have financial acumen.
    Chairman Castle. Let me ask you another question--and this 
is back to my concern about both the knowledge and coordination 
of the various programs. And don't get me wrong, you are 
wonderful examples of what one can do, and I praise you 
greatly, and I praise, frankly, any business that is willing to 
get involved in helping making good our schools--and by the 
way, I do like Achieve a great deal. I think they are doing 
wonderful things in the country. But I also do worry about what 
the coordination aspect of this is. I don't know if there is a 
national clearinghouse for the various businesses that get into 
these projects. But as I said, I have been to schools and I 
have seen what some of the corporations are doing, and quite 
candidly I question that. To be really honest with you, Ms. 
Sterling, I really question what one high-tech company is 
doing--not yours--but what one high-tech company is doing that 
runs pretty big things for schools. I just was unimpressed when 
I went to their school. And I am wondering, who is looking at 
this? The, schools, in my judgment, will accept any help you 
want to give them. If you are willing to give them computers 
and mentors, they are going to accept it. And they may be a 
little reluctant to critique it and to say this probably isn't 
the best way to do this, or whatever.
    So I am not 100 percent confident that we are getting 100 
percent out of all of the dollars being spent by all the 
businesses in this country--and I don't even know exactly what 
that total is--but from my judgment it is substantial. And the 
businesses have a huge vested interest in what is going on in 
the schools, but my concern is, you know, maybe you are 
watching your own particular programs. But my question to you, 
if you understand it, is broader than that, to what is 
happening on a broader level with all of the various business 
contributions to the schools. Is there any clearinghouse or 
anything of that nature that is really looking at them and 
taking somebody aside and saying, you know, what you are doing 
is probably not the best use of your money and your personnel? 
Do you sense that happening anyplace out there beyond just what 
you are doing?
    Ms. Sterling. Well, Mr. Chairman, I can certainly tell you 
about failures that I have done in a space when I go out and 
see, wow, I am going to do women's gaming camps in high schools 
and I am going to engage women in learning how to write games. 
And after a week of this they look at me and they never want to 
touch a computer again. So I have thrown good money after bad.
    Chairman Castle. Is that the reason why no women are going 
into the computer business?
    Ms. Sterling. And I cannot stress enough how all of the 
best intentions in the world are not solving our technical 
pipeline problem. And I cannot stress enough that as a country, 
we have fully backed National Center for Women IT as the 
assessment in metrics gatekeeper and benchmark organization 
because this is not our core competency. We need the social 
scientists to say quit doing that, it hasn't worked the last 
17,000 times you have tried.
    Chairman Castle. Anybody else?
    Mr. Shore. I think the Superintendent of Schools in Atlanta 
ought to be patted on the back because she is doing something 
that a lot of other superintendents aren't. We would love for a 
superintendent to come knock on our door. If I were a 
superintendent, the first thing I would do is meet with every 
CEO in the community and say, I have got some really difficult 
goals to meet, I can't do it by myself and I need your help. I 
don't think any business would turn that down. Rarely do we see 
superintendents coming to us. They don't pick up the phone and 
say I have got this. It is always the other way around.
    We are going to do the best we can to try to help out 
because it is in our interest. We want good employees coming 
out of these schools. So we would love to see it more of a two-
way street in terms of what I was talking about earlier, with a 
dialog in the partnerships actually having something that is 
two ways, so that--you will waste your money and your time if 
you don't tie in with their goals and what they need to 
accomplish.
    Chairman Castle. That is a good point, the reverse aspect 
of it; maybe they should be seeking help as well.
    Ms. Woolsey, do you have anything further?
    Ms. Woolsey. No, sir. Thank you very much. It was amazing.
    Chairman Castle. Well, let me thank you all of you very 
much for being here as well. We will take all of the 
information you gave us and go through it and hopefully learn 
ourselves. But we appreciate--I know some of you came from a 
distance, so we appreciate you being here and we appreciate 
your contributions. And with that, we stand adjourned. Thank 
you.
    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
